<html>
<title> - RELIGIOUS MINORITIES IN SYRIA: CAUGHT IN THE MIDDLE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    RELIGIOUS MINORITIES IN SYRIA: 
                          CAUGHT IN THE MIDDLE 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2013

                               __________

                           Serial No. 113-75

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-692 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas O. Melia, Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...     5
Zuhdi Jasser, M.D., Commissioner, U.S. Commission on 
  International Religious Freedom................................    34
Ms. Nina Shea, director, Center for Religious Freedom, Hudson 
  Institute......................................................    46
John Eibner, Ph.D., chief executive officer, Christian Solidarity 
  International, USA.............................................    64
Rev. Majed El Shafie, founder, One Free World International......    70

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thomas O. Melia: Prepared statement..........................     9
Zuhdi Jasser, M.D.: Prepared statement...........................    37
Ms. Nina Shea: Prepared statement................................    50
John Eibner, Ph.D.: Prepared statement...........................    66
Rev. Majed El Shafie: Prepared statement.........................    72

                                APPENDIX

Hearing notice...................................................   112
Hearing minutes..................................................   113
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   114
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of the Honorable Anna G. Eshoo, a 
  Representative in Congress from the State of California, and 
  the Honorable Frank Wolf, a Representative in Congress from the 
  Commonwealth of Virgnia........................................   115
Written responses from Mr. Thomas O. Melia to questions submitted 
  for the record by the Honorable Christopher H. Smith...........   117
Zuhdi Jasser, M.D.: Excerpt of USCIRF Report: Protecting and 
  Promoting Religious Freedom in Syria...........................   119
John Eibner, Ph.D.: Material submitted for the record............   127
Ms. Nina Shea: Material submitted for the record.................   135


                    RELIGIOUS MINORITIES IN SYRIA: 
                          CAUGHT IN THE MIDDLE

                              ----------                              


                         TUESDAY, JUNE 25, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 3:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The subcommittees will come to order.
    And good afternoon. And welcome to today's joint hearing of 
the Subcommittee on Africa, Global Health, Global Human Rights, 
and International Organizations and the Subcommittee on the 
Middle East and North Africa as we turn our attention to an 
overlooked aspect of the crisis in Syria: The religious 
minorities caught in the middle of the conflict and apparently 
targeted by government forces as well as rebel groups.
    More than 93,000 Syrians have been killed in this 
horrendous and seemingly endless civil war. More than 4.25 
million people are displaced within Syria, and millions more 
are fleeing to safety in the surrounding countries of Jordan, 
Turkey, Lebanon, and Iraq.
    It is disturbing to note that 1 in 5 of the refugees is 
Christian, although Christians in Syria make up 1 in 10 of the 
pre-war population of 22 million people. This would seem to 
indicate that Christians are even more fearful for their lives 
and safety than other segments of the Syrian population.
    Before the war, Syria was a fairly pluralistic society, 
with Alawites, Shias, Ismailis, Yazidis, Druze, Christians, 
Jews, and Sunnis living in relative peace side-by-side. The 
situation was far from perfect, as President Bashar al-Assad's 
regime had a vast security apparatus in place with members 
inside each of the religious communities to monitor their 
activities. The Assad government was guilty of serious human 
rights violations, including the summary imprisonment and 
execution of political prisoners, but relations between various 
religious groups was generally not violent.
    That civil coexistence has ended with the war. In February 
of this year, the U.N. Independent International Commission of 
Inquiry on the Syrian Arab Republic reported that ``the 
conflict has become increasingly sectarian, with the conduct of 
the parties becoming significantly more radicalized and 
militarized.'' This followed on an earlier Commission report 
stating that ``entire communities are at risk of being forced 
out of the country or being killed inside the country, with 
communities believing, and not without cause, that they face an 
existential threat.''
    We know that early in the civil war Assad came to view the 
Christian minority with suspicion, accusing churches of 
laundering money and goods for opposition forces and forbidding 
banks from conducting transactions for certain churches. There 
is also evidence that the Assad regime encouraged sectarian 
tensions in order to maintain power, perhaps believing that if 
people were afraid of Islamists commandeering a nominally 
secular state, the people would be more likely to support Assad 
over the opposition.
    In December 2012, Time magazine reported allegations that 
the Assad regime was paying individuals to pose as opposition 
supporters and chant slogans at protests, including, ``The 
Christians to Beirut, and the Alawites to the grave.''
    Our own Government has voiced concern about the particular 
threat posed to Christians in Syria. According to the State 
Department's International Religious Freedom Report for 2012,

        ``The regime continued to frame opposition actions as 
        targeting the Christian population. At the same time, 
        it increased its own targeting of Christians and Alawi 
        anti-regime activists in order to eliminate minority 
        voices that might counter its narrative of Sunni-
        sponsored violence.''

    Religious minorities seem to fear the opposition forces. 
Some prominent opposition groups, such as the Muslim 
Brotherhood, have a religious basis which has been seen as 
threatening to Syria's Alawite and Christian minorities. 
Smaller opposition factions, such as the al-Qaeda-affiliated 
jihadist al-Nusra Front, take explicitly sectarian positions. 
There are reports of incidents in which rebel forces engaged in 
sectarian violence, such as burning Shiite mosques.
    Christians are perceived by many in the opposition to be 
Assad loyalists, possibly due to Assad's aggressive recruitment 
of Christians into the regime militias at the start of the 
civil war. Other reports indicate that Christians attempted to 
remain neutral, either out of passivism or concern about their 
rights under opposition forces.
    Christian neutrality was perceived by some opposition 
groups as loyalty to the regime. In December 2012, a rebel 
force believed to be associated with the Muslim Brotherhood 
released a video on YouTube entitled, ``Warning Mainly 
Christian Cities in the Province of Hama,'' and promising 
attacks if they continue to support and house pro-Assad forces.
    Christian leaders have been targeted, such as the April 
2013 kidnappings of two Syriac Orthodox Church bishops. Both 
men have still not been returned. The Druze community reports 
being targeted, as well. In March 2013, a Druze leader reported 
to Christian Solidarity International, who will testify today,

        ``Our people get stopped at checkpoints and are asked 
        which sect they belong to. Once the militias hear that 
        they are Swaida, a province where 90 percent of the 
        population is Druze, our men disappear.''

    Al-Nusra Front, a U.S.-designated foreign terrorist 
organization, has been blamed for much of the sectarian 
rhetoric and violence, but dozens of the opposition groups 
ascribe to Islamic jihadist ideologies and mingle with the Free 
Syrian Army, which the U.S. may now be supporting.
    Over the last 3 years, the United States has committed to 
providing $250 million to various opposition groups in Syria, 
at least $117 million of which has already been funded, largely 
to the National Coalition for Syrian Revolutionary and 
Opposition Forces. With the chemical-weapon red line crossed, 
the administration has also agreed to provide ammunitions and 
small arms, as well. It is not clear whether any of this new 
lethal assistance will go to the Free Syrian Army and its 
worrisome opposition groups.
    The administration also committed to send an additional 
$300 million in humanitarian aid to ``vulnerable groups in and 
around Syria.'' It is not clear whether distribution of this 
aid will be informed by the plight of religious minorities.
    I am very concerned that the administration may not be 
taking seriously enough the targeting of religious minorities, 
which is why we have called this hearing. Too often we have 
heard from the administration that they have bigger issues to 
deal with than the vulnerability of religious minorities.
    In the last two appropriations cycles, we have directed the 
administration to condition aid, for example, to Egypt, some 
$1.3 billion, on the certification that Egypt is acting to 
protect the religious freedom of its minorities. The 
administration, both Secretary Clinton and Secretary Kerry, 
refused to do so and waived it.
    Perhaps not surprisingly, the Government of Egypt continues 
to allow attacks on Coptic Christians with impunity. I have 
actually chaired three hearings on the targeting of Coptic 
Christians, and I do believe much more needs to be done, and 
robustly done, to protect this minority in Egypt.
    Money does talk. The United States should be using 
assistance to ensure recipient countries and entities have a 
plan that is implemented to protect vulnerable religious 
minorities.
    And, with that, I look forward to hearing the testimony of 
our distinguished witness from the administration. But I would 
like to ask Mr. Schneider if he has any comments and then go to 
Randy.
    Mr. Schneider. Thank you, Mr. Chairman. And thank you for 
calling this very important hearing.
    As you rightly indicated, the sectarian violence in Syria 
is an overlooked aspect of what we are seeing as events unfold, 
with over 93,000 people already believed to be killed, the 
number possibly being even much higher.
    It is critical, as we look forward to moving Syria in a 
different direction, that we take into consideration how we 
create a future for Syria that does not lead to further 
sectarian violence and oppression of minorities. So I look 
forward to hearing from our witnesses and increasing our 
understanding on this crucial issue.
    Thank you very much.
    Mr. Smith. Thank you so very much.
    The distinguished vice chairman of the subcommittee?
    Mr. Weber. Thank you, Mr. Chairman.
    Genocide is defined as the deliberate killing of a large 
group of people, especially those of a particular ethnicity or 
religion. Today, more than at any other time in modern history, 
religious minorities are regularly persecuted, kidnapped, 
tortured, and murdered in Syria, and throughout the Middle East 
for that matter. They are experiencing the true definition of 
``genocide.''
    The Pew Research Center indicates that Christians are 
targeted for governmental and societal persecution more than 
any other religious group. Sadly, an estimated 100,000 
Christians are killed for their faith every single year, 
according to a recent United Nations report.
    And yet the media is complicit in this genocide by failing 
to shine a light on the plight of those being annihilated. 
Their failure to inform the public prevents accountability and 
action. Ignorant or not, as policymakers, we are all just as at 
fault for our failure to step in and help protect the helpless.
    After World War II, a war in which my father fought--and he 
is one of the last of the living greatest generation, by the 
way--we made a promise to the world never to forget. We echoed 
that promise after 9/11: We would never forget. A promise to 
the world that, after World War II, that we would ensure that 
it never happened again.
    But we have failed over and over again: In Cambodia, in the 
Congo, in the Darfur, in Iraq, in Rwanda, and in places, quite 
frankly, too numerous to mention. Countless millions have died 
in genocides which occurred following our promise that we would 
never let it happen again.
    At what point do we say, enough is enough? Our word has to 
mean something. Thousands are crying out to us to pay attention 
and for us to act, and it is our moral obligation as the 
world's leading superpower to do so, because it is who we are 
as a Nation and a people.
    To quote Reverend Dietrich Bonhoeffer, a Lutheran pastor 
who actively spoke out against the Nazi regime in Germany, 
``Not to speak is to speak. Not to act is to act.'' He also 
said, and I quote him here, ``We are not to simply bandage the 
wounds of the victims beneath the wheels of injustice. We are 
to drive a spoke into the wheel itself.'' Realizing that the 
magnitude of the numbers can be overwhelming and awfully 
paralyzing, perhaps we need to narrow our vision down to the 
One who motivates action.
    As those with knowledge of actual events on the ground, I 
look to our witnesses today to give us not only some of these 
individual accounts of what is happening within Syria but also 
ways that we might engage and hold us accountable, by the way, 
that we would be held accountable for the promises that we made 
even as a previous generation. I would much rather be on the 
side of those speaking and acting than those who stayed at 
home.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much, Mr. Weber.
    Mr. Kennedy?
    Mr. Kennedy. Mr. Chairman, thank you very much.
    I just wanted to thank you for calling an important 
hearing, and look forward to what our witnesses have to say on 
the issue.
    Mr. Smith. Thank you very much, Mr. Kennedy.
    Mr. Yoho?
    Mr. Yoho. Mr. Chairman, not right now.
    Mr. Smith. Okay.
    Mr. Collins?
    Mr. Collins. No, thank you.
    Mr. Smith. Thank you.
    I would like to now introduce our distinguished panelist 
from the administration, Thomas Melia, who is the Deputy 
Assistant Secretary for the Bureau of Democracy, Human Rights, 
and Labor. He is responsible for its work in Europe, including 
Russia, and the countries of the Middle East and North Africa 
region.
    He came to DRL in 2010 from Freedom House, where he was 
deputy executive director for 5 years. Earlier, Mr. Melia 
worked at the National Democratic Institute, the AFL-CIO, and 
on Capitol Hill. In addition, he taught democracy and human 
rights courses at Georgetown University and the Johns Hopkins 
School of Advanced International Studies and did that for more 
than 10 years.
    The floor is yours.

 STATEMENT OF MR. THOMAS O. MELIA, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Melia. Chairman Smith and members of the subcommittees, 
thank you for inviting me here to discuss the situation for 
religious and other minorities in Syria today.
    I request that the full prepared testimony be included in 
the record, and I will just give you a summary.
    Mr. Smith. Without objection, so ordered.
    Mr. Melia. Syria looks disturbingly different today than it 
did at the start of the revolution. What started 2 years ago as 
a peaceful demand for human rights in Daraa has turned into a 
devastating nationwide conflict with a growing human toll. The 
Assad regime continues to commit gross and systematic 
violations of human rights.
    Mr. Chairman, you recited the numbers, I don't need to 
repeat them here, but the last several months have been 
particularly concerning. We have seen increasing sectarian 
undertones in the horrific massacres at Bayda, Baniyas, and 
Qusayr. Indeed, the U.N. Commission of Inquiry's June 4 report 
underscores that crimes against humanity have become a daily 
reality for the people of Syria.
    For centuries, Syria has been a rich tapestry of religious 
and ethnic groups, including the Sunnis, the Alawis, Ismailis, 
Shia, Druze, and different Christian communities. The regime 
has provoked and attempted to divide Syria's population by 
driving a wedge between these minorities and the Sunni 
majority.
    The regime continues to target faith groups it deems a 
threat, including members of the country's Sunni majority and 
numerous religious minorities. Such targeting includes killing, 
detention, and harassment. Regime attacks have also destroyed 
religious sites, including more than 1,000 mosques and an 
undetermined number of other houses of worship, including 
churches.
    The attacks in Qusayr marked a dangerous new precedent of 
direct sectarian threats by Hezbollah's forces fighting at the 
behest of the regime. Over 200 civilians were killed and many 
more wounded, who now desperately need humanitarian assistance.
    We have also seen al-Qaeda-linked groups and other violent 
extremist groups engaged in gross human rights abuses. We have 
seen several reports of violent extremists conducting massacres 
of Shia civilians as well as destroying a Shia mosque.
    Many Christians, moreover, have reported receiving threats 
on their lives if they do not join the opposition efforts 
against the regime and have been driven from their homes and 
killed en masse as presumed supporters of the regime. Syrian 
Orthodox Archbishop Yohanna Ibrahim and Greek Orthodox 
Archbishop Paul Yazigi were kidnapped on April 22 by persons 
unknown and remain missing to this day.
    The Nusra Front has claimed responsibility for bombings 
across the country. A 15-year-old boy was executed for 
blasphemy this month by extremists in Aleppo, who, reports tell 
us, have come from outside the country to fight the regime.
    These extremist groups do not support the aspirations nor 
do they reflect the mindset of the vast majority of the Syrian 
people or even the vast majority of the active Syrian 
opposition. The atrocities committed by these extremist 
elements should not be conflated with the efforts by the 
moderate opposition, including the Supreme Military Council, to 
seek an end to the Assad regime and to facilitate an orderly 
political transition.
    In fact, the list of targets that these extreme groups have 
developed is increasingly long and includes Sunnis and 
virtually all the minorities. In a recent interview with The 
Economist magazine, one Nusra Front fighter stated that even 
Sunnis who want democracy are to be considered unbelievers who 
deserve to be punished.
    Sectarian-based retribution plays directly into the 
regime's and violent extremists' hands. It does not move the 
country closer to the inclusive post-Assad future that Syrians 
have been struggling to achieve.
    In our conversations with opposition military leaders, we 
have consistently urged opposition groups to respect 
international law and human rights, and we have applauded those 
groups that signed on to the code of conduct issued by the Free 
Syrian Army in the fall of 2012.
    We continue to try to help bring an end to the violent 
conflict by strengthening the moderate opposition, blocking the 
Assad regime's access to cash and weapons, facilitating a 
political transition to end Assad's rule, and providing 
substantial humanitarian assistance, as well as laying the 
groundwork for an inclusive democratic transition, including 
accountability for egregious violations committed. We are also 
working closely with our allies to stem the flow of money and 
resources to violent extremist groups.
    We believe that a political transition is the best solution 
for the crisis in Syria. We support the letter and intent of 
the June 2012 Geneva Communique--June 30, almost exactly a year 
ago--which calls for a transitional governing body with full 
executive powers and formed on the basis of national consent.
    We have been clear that there is no role for Assad in a 
transitional government. He has lost all credibility and must 
be held accountable for his crimes.
    Our efforts to strengthen the moderate opposition and 
change the balance on the ground include diplomatic outreach to 
improve the representativeness and connectedness of the 
opposition bodies themselves. We have repeatedly encouraged the 
political opposition to include grassroots activists from 
inside Syria, religious and ethnic minorities, and women from 
all these communities in their leadership.
    We hope that the upcoming meetings will produce more 
diverse and inclusive membership and leaders who reflect the 
diversity of Syrian society. We regularly track the violations 
and abuses committed in Syria by all parties and regularly 
reiterate our call for all parties to the conflict to protect 
and to respect the rights of civilians regardless of ethnicity, 
religion, or gender.
    The international community must continue to support 
documentation and other efforts to lay the groundwork for 
justice and accountability processes and to support Syrian 
efforts as they identify how best to bring to justice those who 
have committed so many heinous acts.
    As we expand our engagement with the Syrian opposition now, 
efforts by the United States and the international community 
focused on justice, accountability, and conflict resolution 
will be critical to ensuring the protection of human rights 
during Syria's transition. By helping Syrians to accelerate 
their efforts to lay the groundwork for eventual criminal 
trials, we aim to deter current and potential perpetrators of 
these crimes as well as sectarian vigilante justice or 
collective reprisals.
    In addition to our other bureaus and agencies in the U.S. 
Government engaged in coordinated programs to assist Syrians 
over the past year or more, the State Department's Bureau for 
Democracy, Human Rights, and Labor is supporting Syrian civil 
society so they can more effectively coordinate to advocate for 
human rights and democracy concerns.
    We are also bolstering efforts to lay the groundwork for 
future transitional justice initiatives by supporting the 
documentation of violations and abuses committed by all sides 
of the conflict and education about locally owned 
accountability and transitional justice mechanisms.
    We are also promoting conflict mitigation and 
reconciliation efforts by supporting positive cross-sectarian 
engagement, coalition building and targeted humanitarian 
assistance, and conflict-prevention training at the local 
level, working through respected NGOs and community leaders.
    We support these activities by partnering with large 
interfaith and ecumenical nongovernmental international 
organizations and universities with experience in Syria. A 
broad range of Syrian ethnic and religious minority groups are 
included in these efforts.
    We have also honored the work of human rights activists 
such as Syrian Alawite activist Ms. Hanadi Zahlout, who 
recently was selected for the 2013 Department of State Human 
Rights Defender Award. She has been active on human rights 
issues in Syria since before the revolution and was a founding 
member of the local coordination committees, which are an 
integral part of the opposition infrastructure. She is 
providing education and messaging on anti-sectarianism as well 
as raising awareness about threats to the security of minority 
communities.
    Finally, to ensure that our assistance reaches its intended 
targets and does not end up in the hands of extremists, we will 
continue to vet recipients using the formal processes that have 
been established across various agencies.
    The United States stood with the Syrian people at the 
outset of this conflict, beginning with U.S. support for 
activists and civil society during the early protest movement. 
We stand with the Syrian people today, with ongoing and 
increasing efforts to strengthen the opposition and civil 
society. And we will continue to stand with them going forward 
until the day that we can, together, welcome a new Syria, one 
where the Syrian people can enjoy a free, stable, and 
democratic country without Bashar al-Assad. We look forward to 
continuing to work with Congress toward this goal.
    Thank you again for this invitation to testify before your 
committees. I am happy to take any questions you may have.
    Mr. Smith. Mr. Melia, thank you very much for your 
testimony and for the work of your office.
    [The prepared statement of Mr. Melia follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. I do have a few questions I would like to pose, 
beginning first with, do you have any sense as to how many 
Christians, how many people of minority faiths have been 
killed, wounded, and put to flight either as IDPs or as 
refugees?
    Mr. Melia. We don't have hard numbers on that because a lot 
of the people that are gathering information about deaths, 
displacement, refugees, et cetera, don't always sort the 
numbers by religious affiliation. But we know the numbers are 
appalling and they are growing in all communities, including in 
the Christian minority.
    Mr. Smith. In your testimony, is that something that if you 
can look into it even further, get back to us with some number 
just so we know the order of magnitude, how many people have 
been killed or wounded?
    Mr. Melia. We can certainly explore that. I will see what 
we can find out about that for you.
    Mr. Smith. That would be important to have.
    In her testimony, Nina Shea points out that, and I quote 
her in the pertinent part, ``the Christians are not simply 
caught in the middle as collateral damage. They are the targets 
of a more focused shadow war, one that is taking place 
alongside the larger conflict between the Shiite-backed 
Baathist Assad regime and the largely Sunni rebel militias. 
Christians are the targets of an ethno-religious cleansing by 
Islamist militants and courts.''
    Do you agree with that?
    Mr. Melia. Well, I am quite familiar with Ms. Shea's work 
over the years. I was a colleague of hers at Freedom House for 
a number of years, and I know she is one of the most astute 
students of this subject.
    I think she is right that the regime and other elements 
that have come into the country in the course of this conflict 
are targeting a number of the communities, including 
specifically Christian communities. So it is clear that the 
efforts to divide and conquer are affecting not only the 
Christians but including the Christians, most definitely.
    Mr. Smith. I will never forget back in the early 1980s a 
visit that I had to El Salvador when Napoleon Duarte was the 
President of El Salvador. And there was a big, raging 
controversy in the United States about whether or not human 
rights conditionality should be affixed to military aid. And in 
a meeting with Ambassador Corr and myself, he said, ``While 
some in this government may say no, put those human rights 
safeguards on all of our aid,'' because it helps him even with 
some of those people who might have been part of the right-wing 
death squad apparatus that he abhorred himself.
    My question is that we now have taken a side, a clear side, 
with the Free Syrian Army and with other elements of the 
opposition. And I wonder if you could tell us how we can ensure 
that our support, both in the area of weaponry and humanitarian 
support and logistical support, that we can ensure that the 
people to whom we are providing that are not part of the 
problem, are not committing atrocities and human rights abuses 
in Syria.
    Mr. Melia. Well, you are pointing to one of the most 
difficult challenges that we have faced over these last many 
months of this conflict in figuring out how best to intervene 
in a constructive way, because there are so many different 
militias and armed groups in various degrees of coordination 
with one another in the battle against the Assad regime. So 
that explains in significant part the hesitation to provide 
more to the opposition, to make sure that we don't provide more 
to the extremist elements that would work against our human 
rights values and against the longer-term interests of a free 
and stable Syria that we aspire to.
    In the assistance we have been providing--and this will 
certainly be enhanced as other kinds of assistance are 
provided--we will do our utmost to vet the recipients of that 
through the kinds of established mechanisms that we use to 
enforce other kinds of human rights provisions in our security 
and economic assistance.
    So we are engaged right now. It is very difficult when you 
don't have your established U.S. mechanisms in a country. We 
don't have an established order of battle in the opposition 
forces that we can study. The leadership doesn't control all of 
the armed elements on the ground.
    So what I can assure you is that this is very much at the 
center of our deliberations. We are working very hard to figure 
out the best way to provide the kind of vetting and end-use 
monitoring that would ensure that the assistance we provide 
goes to the people who are working toward a free, stable, and 
democratic and rights-respecting Syria.
    Mr. Connolly. Mr. Chairman? Over here, Mr. Chairman. Sorry.
    Mr. Smith. Mr. Connolly?
    Mr. Connolly. Mr. Chairman--and I completely support your 
line of questioning. I just--are we on the 5-minute rule in 
terms of----
    Mr. Smith. No, no. We are not.
    Mr. Connolly. May I----
    Mr. Smith. You will have as much time as you want to.
    Mr. Connolly. As much time as we want?
    Mr. Smith. Yes. 
    Mr. Connolly. Okay. Thank you, Mr. Chairman.
    Mr. Smith. Within some reason. And that goes for me, as 
well. Let me just ask a couple of other questions, and then I 
will yield to my colleagues.
    When we are talking about promises and getting promises not 
to do harm, how do we follow up with that? How do we actually 
ensure that, once out in the field with weapons provided by the 
United States of America, that Christians and others are not 
being slaughtered? How do we do that?
    Mr. Melia. Well, the many months of engagement and 
negotiation and political assistance that have been provided to 
the Syrian opposition by my colleagues who are on the front 
lines in that engagement. Now, you have met with Ambassador 
Ford on many occasions. Others in our Government are engaged on 
a constant basis with the Syrian political and military 
opposition, and this is exactly the kind of conversations we 
are having with them. They are endeavoring to persuade us that 
they have the command and control necessary to oversee the 
disposition of the equipment and the assistance we provide.
    There is a trust building. There is a certain confidence 
building. We are going to have to also rely on the reports that 
we get from others, not only the people directly to whom we are 
assisting but also the work of NGOs and journalists and others 
who are gathering all kinds of information. So we will be doing 
our utmost to gather as much realtime information as we can 
from as many sources as we can about what is happening on the 
ground in Syria. That all feeds into the database that we use 
to do further vetting.
    I wish I could promise you that there won't be any--I wish 
I could promise you that we would be 100 percent successful in 
only sending assistance to the most high-minded. But we will 
certainly do our best to work with trusted people that we think 
share our values and our goals.
    Mr. Smith. Does the Free Syrian Army understand that if 
they commit atrocities, if they rape and kill and execute 
Christians, or anyone else for that matter, that U.S. funding 
ceases?
    Mr. Melia. Again, this has been very much a part of our 
conversation, that--and they have made statements, and we know 
that they have told their people in the field to adhere to the 
international standards of humanitarian law and the laws of war 
and conflict.
    It is not a highly organized military organization, but it 
is one that, as we engage with all Syrian organizations, this 
is very much a part of our discourse with them. They know, they 
know why we are there. We are there to support a transition to 
a democratic, rights-respecting regime in Syria. And any of the 
kind of behavior you are describing moves it in the opposite 
direction, and we can't support that.
    Mr. Smith. One final question. With regard to chain of 
command, are our military advisers and the administration 
sufficiently--have they been sufficiently assured that the 
chain of command, what the general says follows through to the 
colonels, to the lieutenants, right on down to the private? Or 
does that kind of structure simply not exist, making, again, 
any kind of discipline when it comes to human rights that much 
harder to adhere to?
    Mr. Melia. I am going to defer to my colleagues at the 
Pentagon and elsewhere who are more directly in that lane of 
responsibility for the details on how that happens. But all I 
can say is that this is very much a part of our policy. And I 
can assure you that in our near-daily interagency meetings on 
this, this is not ever out of the discussion.
    Mr. Smith. I do have a final question. If you had the 
opposition versus the Assad military, how would the breakdown 
in human rights violations be? I mean, is it 60-40? 80-20? Who 
are committing the lion's share of these atrocities?
    Mr. Melia. The regime of Bashar al-Assad is by far 
responsible for the most crimes against humanity, the most 
murders, the most dislocation of people in Syria. That is an 
easy one.
    Mr. Smith. Okay.
    Mr. Melia. It is a painful one, but it is easy to say.
    And we have been mindful and the leadership, the 
responsible leadership in the Syrian opposition, has been 
mindful of the arrival of extremists who have come in and say 
that they are fighting the same battle but have different 
agendas. And trying to separate them out is part of their job 
and part of our job, to make sure that the extremist elements 
do not benefit from our assistance.
    Mr. Smith. Had we done this months ago, would it have made 
a difference? I mean, Secretary Kerry himself said we are late. 
Are we late?
    Mr. Melia. I will leave it at what Secretary Kerry said. 
The question is, what do we do tomorrow?
    Mr. Smith. Okay.
    With regards to the chain of command, I do hope you would 
take that back. You know, I have chaired hearings and I have 
been around the world many times. Even looking at U.N. 
peacekeepers, who have a very rigid chain of command, and yet 
in places like D.R. Congo it was the peacekeepers who were 
raping 13-year-olds, which became, as you know, a horrific 
scandal. And here we have people that aren't even part of an 
organized military, so it raises very serious questions.
    Mr. Schneider?
    Mr. Schneider. Thank you.
    And thank you for your testimony.
    I want to touch a little bit--we were talking about the 
militias and the effectiveness of vetting. Do you have a sense 
of how many militias are currently active in Syria?
    Mr. Melia. I think different parts of our Government have 
studied this and come up with numbers that grow over time.
    Mr. Schneider. But ballpark, is it----
    Mr. Melia. Scores.
    Mr. Schneider. Scores. So more than 40, approaching 60?
    Mr. Melia. Scores.
    Mr. Schneider. Of those militias, any sense of how many of 
them are affiliated with specific sects or religious groups 
versus how many are coming in from the outside or coming in 
with a different agenda?
    Mr. Melia. I don't know the answer to that. I do know that, 
as the violence goes on, we see increasingly the different 
communities, geographic communities, religious and ethnic 
communities, are feeling increasingly obliged to organize 
themselves and defend their communities. And that leads to the 
proliferation of militias and different centers of military 
activity, defensive and then conflictive.
    Mr. Schneider. Well, let me come back to that in a second. 
As far as looking at these scores of militias, how are we 
planning to evaluate who is moderate and who is not?
    Mr. Melia. That is the vetting process that I referred to 
that the State Department and other agencies will go into. But 
I would rather leave that for another venue to talk in more 
detail about that.
    Mr. Schneider. What are examples of maybe some definitions 
of what makes one group moderate versus a different group?
    Mr. Melia. I guess it depends on what they say their goals 
are and then also how they behave. Stated goals and behavior I 
think would tell you what different groups' orientations are. 
And so that is--I guess I would leave it at that.
    Mr. Schneider. One of the concerns I have--and I had a 
chance to meet a woman--actually had a naturalization ceremony 
on Friday, a brand-new American--from Syria, from the western 
part of Syria. And she was relating a story of how her brother 
lost vision in one eye, he is now in Turkey getting medical 
treatment, but expressing her concern.
    There was someone else who was talking about the 
challenges--I guess there is a significant Armenian community 
in Syria, and what they see and what they see as post-Assad. 
And you have different opinions on different sides of the 
outcome.
    This split--and I will go to the percentage split within 
the population. What percent of people within the minority 
groups are fearful that, if the Assad regime falls, they would 
be targets of retaliation?
    Mr. Melia. I don't have a number answer for you, 
Congressman, but I can say that anticipating that there would 
be an instinct for some kind of vengeance against minority 
communities has been part of our political/diplomatic 
assistance engagement from the start, to warn against, urge 
against any kind of vengeance and retributive violence.
    So, again, as I say, this has been very much a part of our 
conversation inside the government here and with our Syrian 
partners from day one, because that is a downward cycle that 
can only make things worse. So we have been--you are describing 
exactly the challenge we face.
    Mr. Schneider. So one of my fears as we look at it is--and 
you used the word ``retribution,'' or ``retributive justice.'' 
I will call it, for lack of a better term, an antiquated 
perspective on justice. We are looking for people who have a 
more enlightened vision of justice, that can look at the past 
but focus on the future.
    Do you have a sense that there are enough people within 
Syria, across the spectrum of different sects, that we can work 
with and actually try to achieve an enlightened system of 
justice in a new Syria?
    Mr. Melia. We know there are people who are working toward 
that and would like to see a system of rights-based respect for 
the rule of law in Syria. Some of them, interestingly, are 
judges in other parts of the judicial system that have defected 
from the Assad regime and would like to be judges and 
prosecutors in a better Syria.
    We know that there are people who have been in opposition 
in human rights groups and elsewhere for a long time who also 
see a vision for a rights-respecting system in Syria based on 
international standards and norms. So we know the people are 
there. And those are the people that we are trying to support 
through our assistance efforts and our technical advisory 
assistance efforts.
    Mr. Schneider. Okay.
    As we engage, as we look forward, find groups that will 
share our values and vision, best-case scenario, how likely do 
you think our prospects for success are?
    Mr. Melia. I think the success of the Syrian transition 
will depend mainly on the people of Syria and how they organize 
themselves and where they push their leaders and where their 
leaders take them. You know, we are playing, along with a 
number of other international partners, an important supporting 
role, but I think it is important always to keep in mind that 
this is not so much about us as it is about Syrians. And if we 
can support people to move it in the right direction, we can do 
that. And that is what we are engaged in trying to do now.
    Mr. Schneider. And my last questions, or line of questions. 
You touched on it a little bit. In the cities, in Aleppo and 
Damascus, where you have large, cosmopolitan areas where you 
have different religious groups living together and, for a long 
time, as you said in your opening remarks, living in peace, 
that is one situation. But in the villages, where, as you 
mentioned, now entire villages which would tend to be more of 
one faith or another, organizing and unifying. I had a chance 
to observe a battle from just across the border between Druze 
in a Druze village surrounded by Sunnis. And it is a real 
concern.
    Are the villages going to be able to engage in a future 
Syria, or are they going to carry these grudges and we are 
going to see an intense or intensifying sectarian warfare after 
the fall of the Assad regime?
    Mr. Melia. Well, our efforts in engaging with the political 
opposition have been to encourage and cajole and persuade them 
to make their political apparatuses as inclusive and 
representative of Syrian diversity as possible. That will 
continue to be our effort. We will continue to try to push them 
in that direction.
    And, you know, as we have seen in war-torn societies around 
the world, that is one of the most difficult things afterwards 
when conflicts have broken down along ethnic, sectarian, 
religious, linguistic lines, to try to patch back together 
diverse communities. That will be a long row to hoe for Syria.
    And we will endeavor to work with them to find peace-
building mechanisms, cross-community efforts at reconciliation. 
And right now we are focusing on trying to strengthen the 
political opposition that will provide a better model for a way 
forward for Syria, to get them to the negotiating table and to 
help them articulate a vision for an inclusive, democratic, 
rights-respecting Syria.
    Mr. Schneider. If the road diverges and we end up in a 
failed state in Syria, what geographies do you see? Do you see 
it fracturing into multiple sectarian districts, or is it a 
complete failed state?
    Mr. Melia. Well, now you are getting into speculating about 
what is the worst thing that could possibly happen. So I am 
going to not take the bait----
    Mr. Schneider. Fair enough.
    Mr. Melia [continuing]. And decline to go that way.
    Mr. Schneider. I understand. Thank you for your responses.
    I yield back.
    Mr. Smith. Mr. Weber?
    Mr. Weber. Mr. Melia, you are the Deputy Assistant 
Secretary of State for the Bureau of Democracy and Human Rights 
and Labor; is that right?
    Mr. Melia. That is right, sir.
    Mr. Weber. How long have you been doing that?
    Mr. Melia. 3 years.
    Mr. Weber. 3 years. Are you enjoying that job? I hate to 
put you on the spot, but I am going to put you on the spot.
    Mr. Melia. It is a terrific opportunity to serve my country 
in an important role in the government. I get to work with 
colleagues across Europe and the Middle East to try to 
integrate human rights considerations into our broader foreign 
policy. It is a terrific opportunity for a guy like me.
    Mr. Weber. Well, you sound like a politician. We will watch 
your career and see what you run for next.
    So you were there on August the 21, 2012. Your 3 years 
would have predated that, according to the Associated Press 
release, when President Obama said that if chemical weapons 
were used in Syria, that was a red line that would be crossed 
and the United States would take action. Do you recollect that?
    Mr. Melia. I do. I do.
    Mr. Weber. Okay.
    Mr. Melia. We have been reminded of that a number of times 
since.
    Mr. Weber. I would imagine. According to the AP article, 
some 20,000 people at that point, after 1\1/2\ years of 
struggle, had lost their lives. Does that strike you as 
correct, a reasonable estimate back then?
    Mr. Melia. Yeah, I can't challenge that. I don't remember 
the dates----
    Mr. Weber. Okay.
    Mr. Melia [continuing]. Or the numbers, but----
    Mr. Weber. Well, I will tell what you my wife tells me: I 
wasn't looking for a challenge, okay?
    Now, to date, what is that number to date? What are we 
estimating, how many people have lost their lives?
    Mr. Melia. In Syria? The United Nations has reported it is 
above 93,000, and others say it is over 100,000.
    Mr. Weber. Would you calculate the time from August 21, 
2012, to date for me, please? How long has that been, August--
--
    Mr. Melia. That is 11 months.
    Mr. Weber. 11 months.
    Mr. Melia. Close to 11 months.
    Mr. Weber. A little less than 11 months.
    You made the comment that you wish you could promise we 
would be 100 percent successful in only sending weapons to the 
``most high-minded'' in earlier testimony here today. How do 
you decide who is the most high-minded?
    Mr. Melia. I am going to leave the discussion for whatever 
expanded assistance is being provided to the Syrian opposition 
for others at a higher pay grade. I am trying to describe for 
you, Congressman, the efforts that we are making to ensure that 
whatever assistance we provide is accompanied by a strong 
emphasis on respect for the international humanitarian law and 
the rules of war and democratic standards for addressing human 
rights violations.
    Mr. Weber. So it was 20,000 people on August the 21, 2012, 
that had lost their lives. And now it is, what did you say, 
almost 90,000?
    Mr. Melia. [Nonverbal response.]
    Mr. Weber. So we are going to leave that to other people to 
make a decision. How is that working for those 70,000 people 
that have since lost their lives? It is not working, is it? We 
have got to have activity, action, on our part, wouldn't you 
say?
    Mr. Melia. Congressman, the President of the United States, 
two Secretaries of State, and two Secretaries of Defense have 
been focused on this on a daily basis. We are working to 
support the Syrian people to move to a post-Assad situation. 
This is one of the highest priorities of this government. We 
are doing it mindful of all of the complexities that 
Congressman Smith, Congressman Schneider described for us 
earlier.
    And we have--as you noted, the President's spokesman said a 
couple weeks ago that a red line on chemical-weapons use has 
been crossed and that we are broadening the nature of our 
assistance to the Syrian opposition. So we are moving in that 
direction.
    Mr. Weber. You said in earlier testimony here today that 
the regime of Assad had by far committed the most crimes 
against humanity. Would you give us a percentage of that? Are 
they committing 60 percent, 70 percent of what you are seeing 
on the ground, 90 percent? Would you attribute a number to that 
for us?
    Mr. Melia. I have seen different estimates from different 
agencies--humanitarian, journalists, et cetera. It is by far--
it is in the 80, 90 percent or more are responsible.
    Mr. Weber. So of the 90,000 people killed who have lost 
their lives in this, you would say that some 80,000 are 
attributable to the Assad regime?
    Mr. Melia. [Nonverbal response.]
    Mr. Weber. And I realize that is a guess. Okay.
    Do you think the lack of action on our part--you know, let 
me just--let me say it this way. You know--and you work at the 
State Department; that is why I was curious about your title 
and how long you have been there.
    You know, Mark Twain said that a committee is a group of 
individuals who by themselves can do nothing, but collectively 
they can decide that nothing can be done.
    And my fear is that we have a situation where we go over 
there--and I am not attacking you personally--but we look at 
what is going on and we make all these grandiose observations 
and these declarations that that would be a red line crossed, 
and then we decide that nothing can be done, and we sit back 
and we wait, and more and more people lose their lives.
    Is that what is going on in the State Department?
    Mr. Melia. I think that is an incorrect description, to say 
that nothing has been done since then or nothing is being done 
today.
    We are providing close to $1 billion worth of assistance to 
Syrians, displaced persons and refugees in neighboring 
countries. We are providing a range of assistance--I described 
just some of it--in terms of political advisory assistance to 
the political opposition at a national level and to local 
councils around the country in the liberated areas. We are 
providing support for their efforts to rebuild and sustain the 
infrastructure of Syria in the liberated areas.
    To say that nothing is being done I think is just not 
accurate.
    Mr. Weber. Well, then, it is your contention here today 
that, based on your earlier comments, you want to vet 100 
percent--well, you can't guarantee 100 percent, but you want to 
vet people who are the highest-minded. You want to get involved 
and you want to help, but yet, how you do that, how do you 
decide who is the highest-minded is above your pay grade. Whose 
pay grade is that?
    Mr. Melia. Well, we have a number of professionals in the 
government--we do this all the time on different kinds of 
assistance programs. And maybe I will rephrase the ``high-
mindedness'' to say what we are looking to do is exclude 
violators of human rights. We are looking to make sure that our 
assistance, and consistent with the comments and questions from 
your colleagues, don't inadvertently go to people that are 
going to commit human rights violations with our assistance. We 
are there to strengthen those people that are committed to 
building a democratic, rights-respecting Syria.
    Mr. Weber. Do we have a good track record in doing that?
    Mr. Melia. I think if you look around the world, I think we 
have often been able to help people do the right thing and 
strengthen institutions----
    Mr. Weber. For example, Libya? Iraq? Afghanistan?
    Let me change gears a little bit on you. When the President 
makes a statement that the use of chemical weapons is a red 
line that is crossed, will be a game-changer--in fact, he 
said--let me quote from the article here: ``The President noted 
that he hadn't ordered''--I am sorry. `` `That is an issue that 
doesn't just concern Syria. It concerns our close allies in the 
region, including Israel. It concerns us,' Obama said, 
underscoring that the U.S. wouldn't accept the threat of 
weapons of mass destruction from Syrian President Bashar al-
Assad's government, rebels fighting the government, or militant 
groups aiding either side.'' The AP quoted him, ``We cannot 
have a situation where chemical or biological weapons are 
falling into the hands of the wrong people.''
    The article went on to say that ``the President noted that 
he hadn't ordered any armed U.S. intervention yet but said, `We 
have communicated in no uncertain terms with every player in 
the region that that is a red line for us and there would be 
enormous consequences if we start seeing movement on the 
chemical weapons front or the use of chemical weapons. That 
would change my calculations significantly,' he said,'' August 
21, 2012.
    And yet 70,000 more people have died. Are we losing 
credibility in the world?
    Mr. Melia. No. In fact, this administration has 
reestablished American credibility in quite a remarkable way. 
So I think that to say that----
    Mr. Weber. That is why Russia and China have sent back 
what's-his-face? That is why they have extradited him to our 
country?
    Mr. Melia. How many subjects do you want to go over, Mr. 
Congressman?
    Mr. Weber. Well, I am simply saying that, as a supervisor 
in the State Department, at what point do you say to those who 
are that higher pay grade, we are not getting the job done and 
we need to change? At what point do you--how many more people 
have to lose their lives before that message gets communicated 
up the line?
    Mr. Melia. You have quoted the President. The President's 
spokesman followed up on that, Ben Rhodes, in the statement he 
made 2 weeks ago on Thursday. When the evidence came in that 
the red line had been crossed, decisions had been taken, and we 
are moving forward.
    Mr. Weber. Well, then, Mr. Chairman, I am going to yield 
back, but I have a suggestion for a future hearing. Maybe we 
get people with a higher pay grade in here to testify and 
answer those questions as to what it takes to get to that 
process.
    I yield back.
    Mr. Smith. Thank you.
    Mr. Connolly?
    Mr. Connolly. Mr. Chairman, thank you.
    And I would love to have a hearing where Members of 
Congress actually have to explain themselves in terms of what 
it is they want the United States to do. Are you willing to go 
to war again? Are you willing to put troops on the ground if it 
doesn't work out? Do you have omniscience? Do you know who is 
good and who is bad in Syria?
    Because unless you do, I don't think you are in the 
position to lecture this administration about the options it 
has and the options it has exercised. This country is sick of 
war and does not want to be sucked into another one.
    Mr. Melia----
    Mr. Melia. Congressman.
    Mr. Connolly [continuing]. Help me understand how we are 
supposed to--the title of this hearing is ``Religious 
Minorities in Syria: Caught in the Middle.'' Do you think that 
is a fair description of religious minorities in Syria?
    Mr. Melia. I think that is not an unreasonable description. 
The religious minorities, of course, are disparate, not all of 
like mind or like situation. But they are in a very difficult 
place, not least because for the last several decades they have 
lived in a very repressive country where the government has 
squelched the ability of people to interact normally between 
communities, within their communities.
    This country is emerging in fits and starts from decades of 
repressive, totalitarian rule. That means that it is hard for 
people to build trust and confidence across communities. It is 
hard for them to think about how to build a better future. But 
it is beginning to happen now. There are Syrians that are 
coming out and building these bridges, and we are trying to 
support that.
    Mr. Connolly. A little bit of history. When Hafez Assad 
came to power, he championed the cause and was himself a member 
of a particular sect not fully accepted as even Islamic by 
some, the Alawite sect; is that correct?
    Mr. Melia. That is right.
    Mr. Connolly. And in championing their cause, did he also 
champion the cause of other minorities in Syria at the time, or 
purport to?
    Mr. Melia. I will defer to the knowledgeable Congressman on 
the strategies and policies of Hafez al-Assad.
    Mr. Connolly. But you are looking at human rights; you knew 
what the title of this hearing was. So I am just trying to 
explore with you a little bit of history to put things in 
context.
    Mr. Melia. Right.
    Mr. Connolly. If you were a Christian Syrian and a minority 
Alawite government comes to power, initially, do you feel 
better or worse about the protection of your rights as a 
minority within Syria at the time?
    Mr. Melia. Well, one might think that minorities would be 
better treated if the government was led by a person from a 
minority community.
    Mr. Connolly. Could there be rational reason to be 
concerned if you were a minority at that time about, in a 
sense, the tyranny of the majority?
    Mr. Melia. Absolutely.
    Mr. Connolly. Are there historical reasons, not only in 
Syria but in the region, to find that concern not entirely 
irrational?
    Mr. Melia. Absolutely. It is a common dilemma across the 
region and indeed worldwide that minorities feel sometimes at 
the mercy of majority communities that they may be alienated 
from, yes.
    Mr. Connolly. So, I like the title of this hearing, Mr. 
Chairman, because I think it actually accurately captures the 
ambiguity, the mixed feelings one might have if one were a 
member of a religious minority in terms of the current 
situation in Syria. If we had an insurgency that explicitly 
embraced, and within reason, it could be confirmed, diversity, 
protection of minority rights and the composition of which was 
itself very diverse and explicitly reassuring the minorities in 
Syria their rights would be better protected than they had been 
in the current brutal regime, I assume, Mr. Melia, that would 
make your job a little easier.
    Mr. Melia. Well, it would, and that has been our quest is 
to encourage the opposition, the civilian opposition to Assad 
to work in precisely that direction, to articulate, and they 
have in some significant ways, a vision that is inclusive of 
diversity, of religious and ethnic diversity in Syria.
    The challenge is going to be to help them make that real. 
You know, we have encouraged them to include in the leadership 
of the Syrian opposition a diverse set of individuals 
representing the many different communities, including women. 
They haven't always taken our advice, but that remains part of 
our encouragement to them.
    So we are trying to encourage them to work in precisely the 
direction you describe, Congressman.
    Mr. Connolly. Is it your impression that we have made 
headway in that regard so that the leadership of the 
opposition, the armed opposition is better sensitized and 
itself more diverse than it was at the time of the uprising?
    Mr. Melia. We have made some headway but not enough.
    Mr. Connolly. Is there evidence within Syria that 
minorities are responding to the call of the armed opposition 
and abandoning the Assad regime?
    Mr. Melia. Well, let me also emphasize that there are--
there is the political opposition, which is affiliated to the 
armed opposition but which is distinct, and our efforts on 
working with Syrians to build out their vision for a political 
future for their country are concentrated mainly with civilian 
leaders, but that is the group that Ambassador Ford and 
Assistant Secretary Jones and Under Secretary Sherman have been 
engaged with over many weeks to try to encourage them to come 
together and create a coherent political organization that, 
among other things, could go to a conference in Geneva and 
negotiate the future of Syria and to provide more--the 
beginnings of governance in Syria.
    At the same time, there are these local councils that have 
emerged in various parts of liberated Syria with their own 
elections, their own dynamics. There is a different group of 
leaders that are emerging there. And then there is the broad 
swath of independent civil society, men and women and their 
families who are not literally part of the opposition, per se, 
not even--not part of the military opposition, maybe not part 
of the political opposition but who would like to live in a 
better the Syria, and that civil society is also another object 
of our attention, to try to help them build out, if you will, 
nonpartisan institutional-oriented projects for building toward 
a democratic Syria.
    Mr. Connolly.Well, I was in Egypt before the revolution and 
after the revolution, and many of the same arguments could have 
been used about Egypt during the revolution. And it is a 
similar dynamic where, because there was no political space 
allowed for a long period of time, only that which was 
organized underground and organized well is going to benefit 
from the vacuum created by the revolution. And so, there were 
lots of secular advocates for a civil society, for a 
pluralistic society, respect for minority rights who showed up 
at Tahrir Square and elsewhere, and they were essentially 
brushed aside when the political process got under way by the 
only organized opposition group in the country, the Muslim 
Brotherhood, and it is a work in progress, and the jury is out, 
but there are a lot of alarming signs that it is not a 
desirable outcome.
    And we did get early behind the ouster of Mubarak. We 
didn't get involved militarily, but we certainly put our chips 
on the line very early in Egypt. And one could argue that that 
is an outcome that certainly is a source of concern at this 
moment.
    This committee had a hearing just last week about the 
judgment with respect to NGO employees, and we have expressed 
concern about democratization and so forth. So, I guess my 
concern is that the choices here are not easy, though some 
would have us believe they are, and that those who want us to 
intervene aggressively as if it is a black and white 
situation--the good guys all wear white hats and the bad guys 
all wear black ones--will have to explain when and if, God 
forbid, the outcomes are not to our liking.
    I do not believe that the choices in Syria are all that 
clear. I wish they were. I do agree, of course, that the 
administration regime of Bashar Assad must go, but we are going 
have to work very carefully to make sure that that which 
replaces it is a government that respects the rights of 
minorities, including religious minorities.
    I am very grateful you had this hearing, Mr. Chairman. 
Thank you.
    Mr. Smith. Thank you very much, Mr. Connolly.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    I will start with a real quick quote from Winston 
Churchhill. He says, ``You have enemies, good. That means you 
have stood up for something some time in your life.''
    I believe that in what I have seen lately in this 
administration, to be honest with you, we are out to make 
friends with everybody. I think it was mentioned earlier what 
is going on with the man who stole--the 29-year-old who 
basically decided he was going to take it upon himself to 
determine U.S. foreign policy and is now being held by, I 
guess, the Russians, and there is this kind of carnival going 
on, and some people call him a hero. I tend to think he is a 
traitor, but that said.
    We don't really know, I think, where the administration 
stands on a lot of issues. The administration came in, they 
said they wanted a great reset with Russia. Unfortunately, I 
don't think Russia got that information. We disarmed our 
ability to defend ourselves against attacks, to the chagrin of 
our allies, and the Russians responded by increasing their 
nuclear arsenal.
    The gentleman that spoke before me said something about 
yelling--in terms of we don't know where we want to go, do we 
know who the enemy is? Do we know what exactly goals we need to 
achieve in Syria? And the answer is, no, we don't. And the 
reason is because for the last 2 years, I have not heard this 
administration sell those goals to the American people.
    The leader of the free world is not the United States 
Congress. The leader of the free world is the President of the 
United States. Everywhere from 2009, where there was uprising 
in Iran, utter silence, crickets on the side of the 
administration. To the situation in Syria, where we saw Bashar 
al-Assad initially being challenged by people who wanted 
freedom from a dictatorship, we got crickets from this 
administration. And now we have created ourselves, we have put 
ourselves in a situation where the opposition does have al-
Qaeda influence and the opposition does have extremist 
influence, and the opposition now is much more muddled because 
there has been not been American leadership.
    And, sir--and I say this respectfully because I understand 
you are here as kind of the face of the administration. You are 
not the one necessarily making these decisions. That was made 
clear. But a big question I have is where has the 
administration been in terms of selling this to the American 
people? And if we have been as active as you say, then how come 
we, on this committee, have talked to allies that have told us 
they are begging for United States leadership to bring these 
groups together? I won't necessarily out who is saying that, 
but I will say allies have talked to us and said, we need 
American leadership in this.
    So, if you care to elaborate on exactly what we are doing 
in bringing allies together and taking a prime role in solving 
this situation, I will give you a short opportunity to do that.
    Mr. Melia. Well, let me just--I am not sure I can respond 
to all the points you raised, Congressman.
    Mr. Kinzinger. I don't expect you to, no worries.
    Mr. Melia. Let me simply say that we are engaged 
constantly. Secretary Kerry is on the phone and in the room 
with our allies in Europe and----
    Mr. Kinzinger. Well, and I understand he wants to bring the 
Russians together and the Russians have made very clear that 
they have a very different interest, and if they come together 
and talk to us, it is probably to buy some time. It is not 
going to be because we are going to enlighten them with our 
philosophy, and they will want to have freedom in Syria. Go 
ahead.
    Mr. Melia. So, the United States currently in the person of 
Secretary Kerry is on a daily basis engaged with our friends 
and allies in Europe and across the Middle East on bringing 
them together around Syria and utilizing everybody's points of 
access to try to bring people to the table as well as to 
organize effective humanitarian and other support to Syrian 
opposition.
    So, I don't know who you have heard from among our allies 
that says we are not leading this, but they certainly come to 
the meetings we convene, and there is a coordinated effort 
under way, and I think we are leading it.
    Mr. Kinzinger. That is the point, and Congress--I have been 
in Congress for 2\1/2\ years now, and I have learned something, 
and that is, there are plenty of meetings but little action, 
and so bringing people to meetings--and again, I say this 
understanding you are not the one leading this, so this isn't a 
personal attack, but you are the face of the administration 
today. I think leading meetings isn't necessarily going to 
solve a situation, we have 90,000 people, vast majority of them 
innocent, that have lost their lives.
    It was also said earlier, ``America is sick and tired of 
war.'' I get it. America is tired. We are. As a military pilot 
and somebody that has been to a bunch of theaters in that 
capacity and still in the military, I can tell you, we would 
love all this war to go away, but we live in a moment in time 
right now where history in 50 or 100 years is going to judge 
what we did in this epic shift in what America and the world 
looks like. This is not the time to be fatigued. This is not 
the time for America to say, well, yeah, we get it, Iraq didn't 
go exactly as we had planned; Afghanistan has been a lot longer 
than we had planned. I feel like the administration is in a 
hurry to get out of Afghanistan on an artificial timeline, but 
that is a separate subject.
    This is not the moment where America can say, we don't have 
the luxury to say we are a little fatigued, it is time to just 
move on, because in 50 or 100 years, the history books that our 
kids and grandkids read is going to say, what did America do 
during this time when there was a monumental shift? And it will 
either be a monumental shift toward a, I don't know, Russian, 
Chinese-centric world, monumental shift toward extremism, a 
monumental shift toward chaos, or it could be a monumental 
shift where America seized an opportunity and led the charge of 
freedom around the globe.
    One of the verses of the Star Spangled Banner actually has 
a great line that unfortunately doesn't get said very much. It 
is, ``Oh, conquer we must when our cause is just,'' and that is 
something that I think we ought not to forget.
    One other thing I want to chat with you about. You 
mentioned that this administration has re-established 
credibility around the globe, re-established credibility around 
the globe. I would like to--I will give you an opportunity to 
elaborate on that, sir.
    Mr. Melia. I am tempted to try to cover the waterfront as 
you have, Congressman. There is obviously a rich discussion to 
be had.
    Mr. Kinzinger. Yeah. Unfortunately, I control the time, 
though, so just if you could--if you could go on with re-
establishing credibility, that is what I am curious about.
    Mr. Melia. Well, I will just give you one example, which is 
that this administration made the decision to become much more 
active in the international arenas of the United Nations, U.N. 
Human Rights Council, the OSCE, where we have come to play a 
leadership role, galvanizing these international mechanisms to 
articulate and enhance the norms that reflect our values, 
freedom of expression, freedom of association, freedom of 
religion, and there is a number of ways in which we have led 
the international community in these venues to step up and 
agree with our propositions that these fundamental 
international human rights are the international system's 
standards.
    So, that happens through patient diplomacy, engaging with a 
wide range of countries, and we have the credibility to do 
that. We lead these discussions, and we often get them to a 
good result, not 100 percent of the time, but often, when we 
engage, we succeed.
    Mr. Kinzinger. Unfortunately, though, sometimes if you 
don't back that with strength, and you know, say, as was 
mentioned earlier by Mr. Weber, talking about a red line, I 
have said before, if you are in a crowded theater and the only 
way to empty that crowded theater is if you yell the world 
``red line,'' don't do it because it has a very powerful 
meaning if you are President of the United States.
    So, with that, I will yield back. I want to say I do 
respect your work for the country, and I appreciate you being 
here. Thank you.
    Mr. Smith. Thank you very much, Mr. Kinzinger.
    Just a few follow-up questions, and if Mr. Connolly or any 
other member of the committee has any additional questions, I 
hope they will fire away.
    Let me just ask you, if I could, Dr. Jasser will testify 
later today that the Assyrian International News Agency 
recently reported that armed rebels affiliated with the Free 
Syrian Army raided the Christian populated al-Duvair village 
and massacred all of its civilian residents, including women 
and children.
    Are you aware of this report? Was it investigated by the 
State Department? And did it show the Free Syrian Army 
responsible? And how are those battalions? How are those troops 
being held to account?
    Mr. Melia. I confess that I--I don't know the details on 
that specific incident. I will be glad to take the question, if 
that is all right, and come back to you.
    Mr. Smith. I appreciate that, and get back to us as soon as 
you can.
    Mr. Melia. Okay.
    Mr. Smith. Dr. Eibner, who will also testify, has just 
returned from Syria, and he says the very existence of 
religious minorities in the Middle East are under threat. What 
is happening to Christians is genocide, and as a matter of 
fact, earlier they had put out a genocide alert, and I am 
wondering if you agree that this is a genocide.
    Mr. Melia. Our Government has not come to the use of the 
word ``genocide'' at this point. We just talk about crimes 
against humanity, and there is certainly some--many, many gross 
human rights violations. The word ``genocide'' is fraught with 
legal and moral and political meaning. I wouldn't toss it 
around casually. I know it is an important part of this 
discussion. I just would say that we are not there yet, but I 
think it is certainly a worthy discussion to have.
    Mr. Smith. Well, as you know, the very Genocide Convention 
talks about in whole or in part. It would seem with the 
evaporating, as Dr. Eibner says, the very existence of 
religious organizations in the Middle East are under threat, 
this is the ultimate game changer. People are not only being 
slaughtered; they are leaving, and so I would hope you would 
take that back. And I would agree that it is--it does carry 
with it implications in law, but I think it is a good thing.
    I remember the fight we had with Sudan in trying to get 
Sudan in the horrific killings in Darfur designated as a 
genocide, and the reluctance was appalling on the part of so 
many, including our friends in the European community, so--and 
you were there as well, so I--please take that back because I 
do think, you know, we need to call it for what it is, the 
systematic elimination of people because of their beliefs in 
whole or in part. If that is not happening in Syria, I don't 
know what is.
    You mentioned also about the importance of documenting the 
atrocities, and I couldn't agree more. I do hope, though, that 
the documentation is thorough, that people on every side of the 
divide who are committing atrocities are held to account, but I 
would also say I think it is--it is--it is thoughtful, but I 
don't think it is--it comports with the reality that some 
somehow Assad or others on the Free Syrian Army side really 
take the idea that they will be held to account some day all 
that seriously. Milosevic never did. Charles Taylor did not. 
Karadzic and all the others who systematically slaughtered 
people after the fact, after the war is over, then they 
realized that they were in a heap of trouble, but it is 
important that we document. But I am wondering, how much 
resources do we spend on that, and are we going just for the 
higher ups? Because we saw with the Yugoslav court, the Sierra 
Leone court, the Rwandan court, very often, the very people who 
were the ones who pulled the trigger and mowed people down and 
raped with--horribly were not the ones held to account, so I am 
wondering how far down the line of responsibility we will be 
going.
    Mr. Melia. Well, there are different efforts under way 
through nongovernmental organizations to collect and organize 
the information. Our bureau is supporting one major effort in 
that regard, but there are others, Syrians in exile working 
with Syrians in the country. I don't know that I can--the 
documentation is inclusive and far-reaching. It is not looking 
at people at a certain grade or rank. It is looking at 
incidents and then trying to connect the dots about who might 
be responsible.
    Mr. Smith. But in the past, as you know, and I know you 
know this so well, having a background that is very rich in 
human rights work, the colonels and the other people who commit 
these atrocities are often--are often not held to account. It 
is the very top, and for that matter, very few at the very top.
    Mr. Melia. Well, the documentation efforts are as 
comprehensive as they can be. Decisions will be made later by 
Syrians in the first instance and then perhaps by other bodies 
about what the accountability might be and for who and in 
what----
    Mr. Smith. And would this be something that would be 
brought at the ICC, or it something that a special court that 
might be established? What is the venue?
    Mr. Melia. We haven't gotten there yet. We just got in 
information for whatever venue might make use of it later on.
    Mr. Smith. Several years back, I held the only and one of 
the most contentious hearings I have ever held on the Armenian 
genocide, and we had both sides, the Turks and the Armenians on 
both side of the divide there at the table, at the witness 
table, but now, fast forward to now and the fact that some 
100,000 Armenians have fled, are there any special efforts 
being made to reach out to that community as well as others to 
help them with their refugee status?
    Mr. Melia. You know, that is a good question, Congressman. 
I don't have a concrete answer for you, but I will be glad to 
look into what our engagement has been with the Armenian 
community. I know we have met with leaders of the Armenian 
church and some of the members of the ethnic community, so I 
know it is part of our engagement. I just don't have a specific 
answer for you on whether we have done something in particular 
for that community, per se.
    Mr. Smith. Very shortly, we will be marking up a piece of 
legislation introduced by Congressman Frank Wolf that focuses 
on--it would establish a special envoy for Middle East 
religions. Obviously, he began to think--and I am a cosponsor 
of it and proud to be so--how important it is that someone walk 
point on these Christians who are being, as Dr. Eibner said, 
their very existence is under threat. Very existence.
    Does the administration support the Wolf bill?
    Mr. Melia. We do not. We think that the Ambassador At Large 
for International Religious Freedom and staff of the 
International Religious Freedom office is able to address these 
issues, and we don't need an additional envoy at this point.
    Mr. Smith. With all due respect, I hope you will convey to 
your superiors how disappointing that is because it seems to me 
that there are religious persecutions occurring all over the 
world. China is probably worst among the worst. The Ambassador-
at-Large, which was Wolf's bill as well, went through my 
committee--we did all the heavy lifting on it in this 
committee--is one person--it is an office, of course, but it 
seems to me that a special envoy with a singular focus would 
have, at least with the ear of the President, would have 
additional clout to really convey, including to the Free Syrian 
Army how serious we are about hands off those people who are at 
risk, including the Christians, so I would hope you would take 
that back. We had the same fight, as you know, with a Special 
Envoy for Sudan. And it took a long time, but we finally got 
it, but I hope you will take that back that we are 
disappointed.
    Mr. Connolly.
    Mr. Melia. I will bring it back to my superiors.
    Mr. Smith. Oh, I see.
    Please, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I will be brief. It seems like, when I was here, you 
answered pretty much everything that was asked over and over 
again, and I don't want to sound like a broken record, but what 
I see in the Middle East, it seems like a broken record with 
the policies that we have had and the same conflicts that come 
up. And I read, too, that article you read about or referenced 
about the 15-year-old boy that was assassinated in front of his 
parents, and my concern is like everybody else, to give 
military assistance to these groups, even if we vet them, you 
know, there is no guarantee that somebody else will come in and 
take those arms away. And from your experience, what other non-
intervention techniques, strategies can we come up with and how 
can we include more Arab nations involved in this? Because, as 
we all know, if Westerners intervene in an Islamic state, it 
tends to unify against the Westerners, so what else could we 
do, instead of military assistance, to help stop this?
    Can we employ and engage the U.N. more, since that was one 
of their main missions is to help resolve world conflicts, and 
it doesn't seemed like we are doing very well there either. And 
from your experience in the years you have had in foreign 
affairs around the world, what other strategy could we come up 
with? I mean, there has got to be a better way instead of 
sending arms over there, because we tried that in--I mean, even 
our own administration sending them to Mexico, we couldn't keep 
track of them. And I don't know how we can keep track of them 
in a foreign nation. So, if you could elaborate real briefly.
    Mr. Melia. What we have been engaged, since long before 
this uprising and conflict began, in isolating the Syrian 
regime through financial sanctions and political sanctions, and 
that has been escalated over these last 2 years through a 
series of measures that we have implemented so that the 
financial and economic assistance to the Syrian regime has been 
reduced to dramatically, thanks to American leadership in 
mobilizing the international community on this sanctions 
regime.
    The conference that Secretary Kerry has proposed, along 
with Foreign Minister Lavrov to bring together the different 
sides in Syria is to be convened, in fact, by the United 
Nations--I mean, Secretary General Ban Ki-moon, who would 
convene that conference. So although the initiative has come 
from U.S. and Russian foreign ministers, it is intended and is 
envisioned to be managed by the United Nations. So we have been 
mobilizing the international community in a variety of ways to 
provide--to try to cut off the assistance to the regime and 
also to facilitate a discussion.
    As you well know, the Russian and Chinese Governments have 
not cooperated in our efforts to bring greater Security Council 
weight to these decisions on Syria, and we know that several 
countries are continuing to supply weapons to the government.
    Mr. Yoho. Okay.
    Mr. Melia. And that is--that is feeding the problem. That 
is fuelling the problem.
    Mr. Yoho. It is, and I agree, and that is the broken record 
I see over and over again. What other Arab countries are we 
bringing to the table that have a vested interest? I know 
Jordan is right there, and you know, we have got Turkey to the 
north. I mean, how else can we engage them and make a stronger 
presence to where the influence is coming from them to say 
let's calm this down, let's, you know, let's develop our 
economies and not worry about this other stuff and help that 
situation in that forum instead of, here is your guns, here is 
your military aid, and it just--it just doesn't seem like that 
works. Who else is coming to the table?
    Mr. Melia. Well, the Arab League, which is the 22-member 
organization in which Syria had been a member for many years, 
initially was divided over this. They expelled the Syrian 
regime, and most of the Arab governments of the Arab League are 
on increasingly visibly on the side of the opposition in 
various ways, and so they have seen this as a problem that they 
would like to see resolved sooner rather than later, and they 
are very much a part of this multilateral engagement that 
Secretary Kerry is in--he was in Saudi Arabia today. He was in 
Bahrain recently. I mean, he is constantly engaging with our 
Arab friends on this question as well as with the Europeans.
    Mr. Yoho. All right.
    Mr. Chairman, I am going to yield back. Thank you, sir.
    Mr. Smith. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Just a few brief items. One, I think you made a statement, 
you have been asked about twice about the restoration of U.S. 
prestige and engagement around the world. I want to presume by 
you saying that that there was something to be restored. There 
was prestige to be restored. Was that your point?
    Mr. Melia. I think I am going to resist the temptation to 
get into an analysis of the previous administration's foreign 
policy. I just don't think it would be productive for today's 
hearing, with all due respect to the Congressman.
    Mr. Connolly. Fine. I will not show such restraint. I mean, 
it is very clear that the United States' prestige and 
engagement around the world were badly damaged by 8 years of 
the previous administration. We can hold in abeyance whether 
what they decided to do was good, bad, or indifferent, but what 
is beyond dispute is it was controversial, unwelcome in the 
international community and did us damage with allies and 
neutral nations alike and enormous repair work had to be done. 
That's one of the reasons why the former Secretary, Hillary 
Clinton, spent so much time traveling. She wanted to repair, 
face to face, damaged relationships in every continent on the 
planet. So, the idea that somehow our prestige is on the line 
because we haven't invaded Syria or made a clearcut decision 
about who to support in Syria, I find ironic, at best, so I 
will say it for you.
    I thought the chairman made a very important point about 
atrocities and war crimes, and if I took what you were getting 
at, Mr. Smith, by documenting them now, by making sure that 
those perpetrating those crimes are fully aware of the fact we 
are doing that and that sooner or later they will be brought to 
justice, it seems to me, could help on lots of levels, not 
least of which is perhaps helping to deter some of the 
atrocities, though as Mr. Weber points out, 90,000. 93,000 is a 
horrific number for a country the size of Syria.
    What are we doing to track atrocities and to advertise 
broadly that we are doing so, and we are naming names?
    Mr. Melia. Well, the efforts that we are supporting 
currently are not broadcasting names now, but I think it is 
increasingly well known in Syria because there are researchers 
and data collectors working online and through collecting 
interviews from refugees and survivors of different incidents, 
there is a lot of--it is clear there is a lot of information 
being gathered. And while we don't want to endanger the ongoing 
effort to collect the information, the purpose of the work is 
precisely as you say, Congressman, to let people know that 
there will be some accountability and that we hope that at some 
point, some individuals, some others will choose the better 
path knowing that there will be some accountability down the 
road, so that is the purpose of this.
    Mr. Connolly. Well, you know, they say sunshine is the best 
disinfectant, and I think I concur with the chairman's, I think 
where you were taking us, which is bringing some sunshine onto 
this may go a long way, but at the very least, everyone needs 
to be on notice. We will pursue it, as will the international 
community.
    Finally, the word ``genocide,'' you reacted to the word 
``genocide,'' and would you say, given your responsibilities, 
that it would be a fair characterization to say that religious 
minorities, including especially the Christian community but 
not limited to the Christian community, in the Middle East and 
certainly in Syria have reason to be concerned?
    Mr. Melia. Absolutely. I think that it's very clear that 
religious tensions and violence have risen across the region. I 
think that is indisputable. Very clearly seems to be concerned.
    Mr. Connolly. Do--would it be fair to say that policies 
explicit or implicit that have been adopted in the region, 
especially in the post-Arab Spring governments, are encouraging 
religious minorities, especially Christians, to perhaps find a 
different home, to go somewhere else, to not be integrated into 
this new community, this new political community; is that a 
fair statement?
    Mr. Melia. You are describing the ongoing political social 
challenges of these countries in which new political actors, 
new governments are changing some of the dynamics, some of the 
protections that may have previously existed for minority 
communities. You are describing the challenges we face in the 
region, but more importantly, that the people of the region 
face, and so this is an important issue and worthy of greater 
discussion and examination.
    Mr. Connolly. I share the chairman's concern about the fate 
of so many minority communities in the region. I can tell you 
when I go--Mr. Schneider was talking about going to a 
naturalization ceremony. I go to as many as I can in my 
district, and some of them are very substantial, 700, 800 new 
citizens. What has struck me in the last year or so was the 
upsurge in the number of Christian Egyptians and Christian 
Syrians who are coming to the United States for citizenship 
because of their palatable fear of remaining back home. Now, 
that may be anecdotal. It may be just those families, but the 
numbers certainly grab one, and I just think it is really 
important.
    I don't know that genocide is going on, though we are going 
to have a witness who will assert otherwise, but certainly some 
kind of cleansing seems to be going on in certain corners of 
the region, and it is very troubling, and it seems to me that 
the United States must speak out about that to--and without 
doing something ham-handed, try to offer its protection to 
those minority communities. A delicate job, but it seems to me 
that is something incumbent upon us as we move forward, a value 
you would share, Mr. Melia?
    Mr. Melia. I agree with you, Congressman.
    Mr. Connolly. Finally, Mr. Chairman, I just want to thank 
Mr. Melia for being here. He and I go back way back. We worked 
on the Hill together in the United States Senate. He worked as 
a foreign policy legislative--he was my foreign policy 
legislative assistant to the late Senator Daniel Patrick 
Moynihan. I was on the Senate Foreign Relations Committee 
staff, and Tom did a great job then and is doing a great job 
for his country now.
    Thank you, Mr. Melia, for being here.
    Mr. Melia. Thank you, Congressman.
    Mr. Smith. Thank you. Mr. Weber.
    Mr. Weber. I am okay.
    Mr. Smith. Thank you. Thank you very much, Mr. Melia, and I 
do--you know, there are a number of questions that you did say 
you would get back on, and I hope you will do it very quickly.
    Mr. Melia. We will come back to you, Congressman, as soon 
as we can.
    Mr. Smith. Thank you.
    Mr. Melia. Thanks.
    Mr. Smith. I would like to now welcome our second 
panelists. And thank you for your testimony today.
    We will begin with Dr. Zuhdi Jasser, who is a member of the 
U.S. Commission on International Religious Freedom, and he is 
also founder and president of the American Islamic Forum for 
Democracy and is the author of ``A Battle for the Soul of 
Islam: An American Muslim Patriot's Fight to Save his Faith.'' 
Dr. Jasser is a first-generation American Muslim whose parents 
fled the oppressive Baath regime in Syria. He earned his 
medical degree on a U.S. Navy scholarship and served 11 years 
in the United States Navy. Dr. Jasser has testified before the 
House and Senate and briefed Members of the House and Senate on 
many occasions in the past.
    We will then hear from Nina Shea, who is currently a senior 
fellow at the Hudson Institute, where she directs the Center 
for Religious Freedom. She has been an international human 
rights lawyer for 30 years. During that time she has worked at 
Freedom House and served as a member of the U.S. Commission on 
International Religious Freedom. Ms. Shea has also been 
appointed as a U.S. delegate to the United Nations main body 
for human rights by both Republican and Democratic 
administrations. She regularly presents testimony before 
Congress, travels extensively and writes on religious freedom 
issues in many well known news outlets.
    We will then hear from Dr. John Eibner, who is the chief 
executive officer of Christian Solidarity International in the 
United States, and travels around the world to frontline 
situations to document gross human rights abuses. Dr. Eibner 
has directed human rights campaigns for CSI on behalf of 
persecuted Christian communities in the former Soviet Union, 
Egypt, Iraq, and Sudan. He has recently returned from a trip 
Syria. We are grateful for his insights into the conditions 
there. Dr. Eibner also served as CSI's main representative at 
the United Nations in Geneva and has written extensively on 
human rights issues for a range of well-known publications.
    I note parenthetically, one of my first trips to the 
Eastern Bloc was to Romania back in the early 1980s with CSI. 
We met with a number of dissidents, combatted the atrocities of 
the Ceausescu regime, and as a direct result of that, 
introduced legislation to take away MFN from Romania because of 
its egregious human rights abuse. CSI played a pivotal role in 
my and Frank Wolf's work on Romania.
    We will then hear from the Reverend Majed El Shafie, who is 
a human rights advocate who has established two successful 
human rights organizations and is currently the president of 
One Free World International, an organization that focuses on 
the rights of religious minorities around the world. Reverend 
El Shafie advocates globally for Christians, Chinese Uyghur 
Muslims Baha'i, Ahmadiyya Muslims, Jews, Falun Gong, and so 
many others. He is frequently called upon to provide expert 
testimony in refugee and protection proceedings in both Canada 
and United States. His work has been covered in a wide range of 
television, radio and print media and has taken the gospel and 
the human rights advocacy implicit about the gospel faithfully 
all over the world.
    Dr. Jasser, the floor is yours.

STATEMENT OF ZUHDI JASSER, M.D., COMMISSIONER, U.S. COMMISSION 
               ON INTERNATIONAL RELIGIOUS FREEDOM

    Dr. Jasser. Thank you, Chairman Smith and subcommittee 
members for holding this very important hearing. I request that 
my written statement be submitted into the record along with a 
special report that our commission, USCIRF, put together 
called, ``Protecting and Promoting Religious Freedom in 
Syria.''
    Mr. Smith. Without objection, so ordered, and all of your 
full statements and any additional information you would like 
to have affixed to it will be made a part of the record.
    Dr. Jasser. Thank you. Well into its third year, the Syrian 
civil war has widespread implications both for religious 
freedom or belief in the stability of the region and beyond. 
The Syrian people have experienced indescribable horrors with 
almost 93,000 dead, 4.2 million internally displaced and 1.6 
million refugees. Stories refugees related to USCIRF, our 
commission, remained vivid in my mind. Our staff visited there 
earlier this month, visited Egypt and Jordan.
    A regime soldier tortured by his colleagues because he 
refused to shoot civilians, Sunni women and children. A mother 
relaying how the regime questions children about the 
opposition. The wrong answer can mean death to the child of the 
family. A high school and university student despairing about 
their own futures.
    The war hits especially close to home for me and my family, 
the son of Syrian immigrants. We daily sit on edge waiting to 
hear from family members, as so many American Syrians do, my 
own in Aleppo and Damascus, wondering who is next to be 
tortured, disappeared or forced to choose between the regime or 
death.
    What is the nature of this conflict? The Assad regime has 
created a humanitarian crisis on a scale not recently seen in 
the region, and it will certainly get worse, and it is on its 
way to heading exponentially as the vacuum, which has been 
Damascus, may be on the way to what the rest of Syria has 
experienced.
    By the end of 2013, more than half of Syria's population, 
over 10 million people likely will need urgent humanitarian 
assistance. The Assad regime turned what was peaceful political 
protests that began in Daraa with no religious or sectarian 
undertones into a sectarian conflict, most of that in the last 
year. Despite wide defections and a paralyzed economy, 
remaining regime-associated individuals are supported by a 
foreign military aid, training, and fighters who belong to U.S. 
designated terrorist groups. Foreign countries the U.S. 
considers to be allies sponsor the opposition, many of which 
have very different visions of moderation and religious 
freedom. The regime and foreign fighters particularly fuel 
sectarian fires which target people of faith.
    There have been 2,000 mosques and churches that have been 
targeted and many of which have been destroyed. The Assad 
family's brutal authoritarian rule--make no mistake, this 
started 42 years ago, created the political conditions and 
sectarian divisions that the regime is cashing in on today, 
fueling today's conflict. With political opposition banned and 
security forces perpetrating egregious human rights abuses, 
dozens of domestic and foreign opposition groups have emerged, 
as we have heard in testimony. Some espouse democratic reform, 
others religiously motivated violence, such as the U.S. 
designated terrorist group, Jabhat al-Nusra Front, and they are 
often way too disporate to work together, complicating the 
situation for religious freedom in the region.
    The Assads selectively permitted religious freedom for the 
smallest religious minority groups as long as they did not 
politically oppose the regime. While religious minorities will 
certainly be more vulnerable in a post-Assad Syria should 
extremist groups take power, the Assad regime has targeted 
Sunni Muslims, as we have heard with Mr. Weber's questions 
about the numbers, committing against them the most egregious 
human rights and religious freedom violations. But certainly 
the religious minorities are caught in the middle. The 
estimated pre-conflict population in Syria was 22 million, 75 
percent are Sunni Muslim, 12 percent Alawi, 10 percent 
Christian, 4 percent Druze, and the Yezidis, Shi'a Muslims, 
Ismailis and Jews are less than 1 percent each.
    These religious minorities increasingly are being forced to 
take sides in this vacuum. The Assad regime used sectarian 
rhetoric to discourage Christians and other religious 
minorities from supporting the opposition, whom the regime 
refers to, along with all Sunni Muslims, as extremists and 
terrorists who will turn Syria into an Islamic state 
inhospitable to religious minorities. And in fact, the Assad 
regime has fomented an environment in which the radicalization 
of not only bringing in al-Qaeda and Jabhat al-Nusra caused the 
radicalization of many of those who started out peacefully.
    The regime frightens Christians by predicting a fate like 
the Egyptian Coptic Christians and Iraqi Christians should the 
opposition succeed and thus frightening them into taking sides. 
Al-Qaeda-affiliated foreign terrorists and the wide deployment 
of Shabiha, which are the regime terror squads, makes credible 
this argument. The Alawite community from which the Assad's 
Baathist party arises, however, is not monolithic, with some 
elites abandoning the regime for the opposition and denouncing 
the violence perpetrated against civilians.
    And if we accept the regime's narrative that this is a 
sectarian battle, which it has turned into, then we buy into 
their rhetoric. Foreign Assad supporters also are entering 
Syrian and stoking sectarianism, including Hezbollah, Iranian 
Islamic Revolutionary Guards, and Shiite fighters from Iraq.
    Alarmingly, Syria's sectarian conflict now appears to be 
spreading beyond its borders, including into Lebanon and Iraq. 
We now are seeing levels of sectarian violence in these 
surrounding countries that we hadn't seen before.
    Despite being in the middle, religious minorities are not 
fleeing Syria in the numbers anticipated. Most of the 1.6 
million refugees are Sunni Muslims. At the end of April, UNHCR 
reported that less than 1 percent of each minority community 
has registered and had been registered in Egypt and Iraq, 
Jordan, and Lebanon. While about 300,000 Christians reportedly 
are internally displaced, data for others, though, are 
difficult to find and unavailable. Christians and Alawites, who 
constitute less than 1 percent of registered refugees, largely 
on moving back to their homes or regime-held areas that they 
are beginning to feel now are safer from regime bombing.
    I will highlight, lastly, a few of our recommendations.
    The U.S. should assist the Syrian opposition coalition in 
any future post-Assad government to protect likely targets of 
sectarian or religious motivated violence, including religious 
minorities. Next, to offset the influence of extremist groups 
who establish Sharia courts in liberated areas, the U.S. 
Government should provide technical training and support to 
local councils, courts, lawyers, and judges on domestic laws 
and on international standards relating to human rights and 
religious freedom.
    As nations like Saudi Arabia and Qatar vie for influence, 
the U.S. Government should form a coalition with partners among 
the Friends of Syria in support of efforts from all intra- and 
inter-religious tolerance and respect for religious freedom and 
related rights. The U.S. Government should establish a Syrian 
refugee resettlement program for those fleeing religious 
persecution.
    So, in essence, Chairman Smith, sectarian violence has been 
both imported into Syria and ignited within by the Assad regime 
as a final justification to maintain its tyranny. We must seek 
these and other remedies now and post-Assad to address the 
plight of religious minorities and for all free people in Syria 
for whom the United States may well be their last best hope.
    Thank you.
    Mr. Smith. Thank you very much, Dr. Jasser.
    [The prepared statement of Dr. Jasser follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Ms. Shea.

  STATEMENT OF MS. NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS 
                   FREEDOM, HUDSON INSTITUTE

    Ms. Shea. Thank you, Chairman Smith.
    Thank you, Chairman Smith, and I commend you and the two 
subcommittees for holding this critically important hearing. 
The persecution of religious minorities concerns America's core 
values but is one the United States has failed to address in 
Iraq to the devastation of the Christian Mandaean and Yezidi 
communities there, and the U.S. must not fail to recognize a 
similar threat that has already developed in Syria.
    I will focus today, in my testimony, on Syria's Christians 
and the threat that they face to their continued existence in 
their ancient homeland. This threat applies equally to Syria's 
other defenseless and even small minorities, for example, the 
Yezidis, and I would like to enter into the record a statement 
of the Yezidi Human Rights Organization as well as the 
assessment statement of the Syriac National Council.
    Though no religious community has been spared egregious 
suffering, Syria's ancient Christian minority has cause to 
believe that it confronts an existential threat. This was said 
by the U.N. Human Rights Council's Commission of Inquiry on 
Syria, and this group, in contrast to Syria's larger groups, 
has no defender. Primarily, ethnically Assyrian but also 
Armenian and Arab and numbering about 2 million, the Christians 
face a distinct peril so dire that their ability to survive in 
Syria is being seriously doubted by the church and by secular 
observers as well.
    While in some neighborhoods they struggle to maintain 
defense committees, they lack militias of their own, nor do 
they have protective tribal structures or support from any 
outside power. The Christians are indeed stranded in the middle 
of a brutal war, where each side, regime and rebel, fires 
rockets into civilian areas and carry out indiscriminate 
attacks. The Christian churches, which were registered and 
permitted by the Assad regime, have not formally allied 
themselves with either side in the conflict, though they have 
been under intense pressure to do so.
    However, they are not simply caught in the middle as 
collateral damage. They have been targets of a more focused 
shadow war. Christians are the targets of an ethno-religious 
cleansing by Islamist militants and their Sharia courts. In 
addition, they have lost the protection of the Assad 
government, making them easy prey for criminals and fighters 
whose affiliations are not always clear.
    As Archbishop Jeanbart of Aleppo's Melkite Greek Catholic 
Church states, Christians are terrified by the Islamist 
militias and fear that in the event of their victory, they 
would no longer be able to practice their religion and that 
they would be forced to leave the country. He went on to 
explain, ``as soon as they reach the city of Aleppo, Islamist 
guerrillas, almost all of them from abroad, took over the 
mosque. Every Friday, an imam launches their messages of hate, 
calling on the population to kill anyone who does not practice 
the religion of the Prophet Muhammad. They use the courts to 
level charges of blasphemy, who is contrary to their way of 
thinking pays with his life.''
    Unprotected, the Christians are also prime victims of 
kidnappers and thieves. Such threats and assaults are driving 
out the 2,000-year-old Christian en masse from various parts of 
the country. Archdeacon Youkhana of the Assyrian Church of the 
East, who works with Syrian refugees, wrote to me recently,

        ``We are witnessing another Arab country losing its 
        Christian Assyrian minority. When it happened in Iraq, 
        nobody believed Syria's turn would come. Christian 
        Assyrians are fleeing massively from threats, 
        kidnappings, rapes and murders. Behind the daily 
        reporting about bombs, there is an ethno-religious 
        cleansing taking place and soon Syria can be emptied of 
        its Christians.''

    Syriac League President Habib Afram states that Christians 
are ``systematically targeted'' with kidnappings, which are 
used either to collect ransom or to terrorize them into 
leaving. The highest profile attack, of course, was the 
kidnapping by gunmen in April of the Greek Orthodox Archbishop 
Yazigi and Syriac Orthodox Archbishop Ibrahim. This sent an 
unmistakable signal to all Christians: None is protected.
    Other clergy have been kidnapped and disappeared as well. 
In February, 27-year-old Father Michael Kayal of the Armenian 
Catholic Church in Aleppo was abducted while riding on a bus. 
An Islamist spotted his clerical garb. He has not been seen 
since. A similar fate befell a Greek Orthodox priest, Maher 
Mahfouz, around the same time.
    Last December, Syrian Orthodox parish priest Father Fadi 
Haddad was kidnapped after he left his church in the town of 
Qatana to negotiate the release of one of his kidnapped 
parishioners. A week later, his mutilated corpse was found by 
the roadside with his eyes gouged out, his murderers unknown.
    And reports are just in today that St. Anthony's Monastery 
in Idlib was stormed last Sunday and killed--the Islamist 
rebels killed Father Francois Mourad who was defending the nuns 
there.
    Ordinary individuals, too, have been summarily killed after 
being identified as Christian. An Islamic gunman stopped the 
bus to Aleppo and checked the background of each passenger. 
When the gunman noticed Yohannes' last name was Armenian, they 
singled him out for a search. After finding a cross around his 
neck, ``One of the terrorists shot point blank at a crossing--
at the cross, tearing open the man's chest.''
    A woman from Hassake recounted in December to Swedish 
journalist Nuri Kino how her husband and son were shot in the 
head by Islamists, ``Our only crime is being Christians,'' she 
answers when asked if there had been a dispute.
    Gabriel, an 18-year-old, fled with his family from Hassake 
after his father was shot for having a crucifix hanging from 
his car's rearview mirror. The son told Kino, ``After the 
funeral, the threats against our family and other Christians 
increased. The terrorists called us and said it was time to 
disappear; we had that choice, or we would be killed.''
    The New York Times reported that a young Syrian refugee 
demonstrated how he was hung by his arms, robbed and beaten by 
rebels ``just for being a Christian.''
    Muslims, of course, are subjected to kidnapping, too, but 
the Wall Street Journal reported on June 11th, often, ``their 
outcome is different'' because they have armed defenders. They 
told the story of a 25-year-old cab driver, Hafez al-Mohammed, 
who said he was kidnapped and tortured for 7 hours by Sunni 
rebels in al-Waer in late May. He was released after Alawites 
threatened to retaliate by kidnapping Sunni women.
    Many also pointed to criminal assaults and the government--
and a government that fails to protect them. A refugee detailed 
to journalists: ``Two men from a strong Arabic tribe decided 
one day to occupy our farmland just like that. When I went to 
the police to report, I was told there was nothing they could. 
The police chief was very clear that they would not act as they 
didn't want the tribe to turn against the regime.''
    Christians also fear the Talibanization through Sharia 
courts where they are given four choices, either to pay a 
Jizyah tax; to convert to Islam; flee; or be killed. Half of 
Aleppo and other places are already under these courts. And by 
the way, the villagers from the areas where these courts have 
taken over have reported to the Catholic Press that the 
fighters were foreign and were recruited, some told of having 
been recruited by being told that they were going to liberate 
Jerusalem.
    There are reports that Christians are leaving Syria in 
droves. Though the details have been sparse, and this is 
partially due to the fact that these Christians are fearful of 
and avoid the refugee camps, so they are therefore not 
registered with the U.N. as refugees.
    An Orthodox cleric concludes, it would not be good if all 
Christians were to leave Syria because then the church would 
disappear here, but those who stay risk their lives and the 
lives of their children.
    And Mr. Chairman, my time is almost up, so I just want to 
say that I have a number of recommendations. I am not going to 
say them all here now, but I would like to point out that the 
situation the Christians and the other minorities should be--
defenseless minorities should be accurately reflected in a 
special report, one that Congress could mandate or in official 
speeches from the bully pulpits of our highest level officials. 
That, so far, has not happened.
    The State Department Religious Freedom Report on Syria, 
which was released last month, notes rather blandly that there 
are ``Reports of harassment of Christians . . .'' and that ``. 
. . societal tolerance for Christians was dwindling. . . .'' 
There were a few actual cases were cited by the State 
Department, and there is not really single--the slightest hint 
in this gross understatement that the threat they face is an 
existential one. And there have been no statements issued by 
the White House's Atrocity Prevention Task Force either on this 
issue.
    And therefore, I would support the bill that was introduced 
by Congressman Frank Wolf and Anna Eshoo and that you are co-
sponsoring for a special envoy for religious minorities.
    And I just want to conclude by saying that the refugee--
there is a real danger that refugee relief is not reaching 
these smallest minorities because, again, they are not in the 
U.N. camps, and they are not being registered by the U.N. and 
that they are rather seeking shelter in churches and 
monasteries in Lebanon and Turkey and that the United States 
should make an effort to identify those places and to count 
those refugees and to give them aid and to ensure that any 
humanitarian aid, which is desperately needed inside Syria, 
also reaches their villages and neighborhoods. Thank you very 
much.
    Mr. Smith. Ms. Shea, thank you very much.
    [The prepared statement of Ms. Shea follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Dr. Eibner.

   STATEMENT OF JOHN EIBNER, PH.D., CHIEF EXECUTIVE OFFICER, 
            CHRISTIAN SOLIDARITY INTERNATIONAL, USA

    Mr. Eibner. Thank you, Chairman Smith, for your determined 
leadership in the defense of human rights over many years, as 
you mentioned, going way back to the 1980s when you travelled 
with CSI as a young Member.
    And I would like to thank members here for their 
constructive questioning and contribution to the debate.
    I would also ask, Mr. Chairman, for my written submission 
to be--and appendants to be placed in the record.
    I returned only last night from Syria, and while there, I 
traveled with local church workers from the tranquil 
Mediterranean town of Tartus through the Valley of Christians 
to war torn homes, stopping at cloisters and villages along the 
way.
    Today's hearing, Mr. Chairman, is indeed timely and 
important. The war in Syria has been catastrophic for all the 
people of Syria and carries within it the seeds of genocide. 
This ever-expanding war, a war that the vast Sunni Muslim world 
increasingly views as a jihad, threatens to set the entire 
Middle East ablaze.
    For 2 years, our Government has pursued a revolutionary 
policy of violent regime change and has done so in the name of 
the Syrian people. I would like to use this opportunity to fill 
in some of the gaps in Washington's regime change narrative.
    Syria is a multi-religious country. Religious minorities, 
mainly Alawites and Christians, constitute roughly 30 percent 
of the population, with Sunni Muslims in the majority. All 
communities have suffered greatly, but the war's seeds of 
genocide have the greatest potential to cleanse the country of 
its religious minorities.
    For over four decades, the secular-minded al-Assad 
dictatorship has provided a kind of protection for the 
religious minorities in a country where they have long 
experienced severe persecution under Sunni rule. The Assad 
regime has provided more space for non-Sunni minorities than 
can be found in any other Arab Sunni majority state in the 
region.
    Those who would overthrow this dictatorship have a 
responsibility to provide a credible alternative system of 
protection, one in which the vulnerable minority communities 
have confidence. Wherever I went in Syria, I heard from 
Christians about the considerable religious freedom that is 
guaranteed by their government, freedom to worship, freedom to 
provide Christian education, freedom to engage with broader 
society through social services, freedom to proclaim their 
faith through public processions on religious holidays, some of 
which are public holidays, and freedom from the obligation to 
conform to discriminatory Sharia norms.
    I was repeatedly asked by displaced Christians, why is 
America at war against us? Why is the United States destroying 
infrastructure of our country? Why is Washington handing us 
over to Islamic extremists? They also wanted me to know that 
the genuine prodemocracy movement of the so-called Arab Spring 
had been tragically overtaken long ago by a parallel Sunni 
supremacist movement, one that is dominated by jihadis, many 
with links to al-Qaeda.
    Dismay was also expressed about Washington's outsourcing of 
much of its Syria policy to regional Sunni allies, in 
particular, Saudi Arabia, Qatar, and Turkey, all of which have 
grave democratic deficits and deny religious freedom and 
minority rights to their own citizens.
    It seems that America's intervention in the war is aimed 
primarily at detaching Syria from Shiite Iran and transforming 
it into a Sunni Islamic state. The goal appears to be to 
construct an anti-Iranian-Sunni access, stretching from Turkey 
in the north to the Gulf states in the south.
    During my visit I spoke with Christians who were personally 
terrorized during the Arab Spring days of 2011 by mobs pouring 
out of Sunni mosques, shouting, ``Alawites to the tomb,'' 
``Christians to Beirut,'' and other genocidal slogans. 
Witnesses provided accounts of murder, including ritual 
beheadings and religious cleansing of their neighborhoods, and 
the desecration of churches.
    Kidnappings, as we have heard, are on the increase, with 
Alawites and Christians as the principal victims. One Christian 
church worker told me that four Alawite cousins of a friend 
were kidnapped and beheaded; a nun told me that she personally 
knows a Christian girl who was abducted by the terrorists and 
is now mentally disturbed on account of the abuse. The most 
widely known kidnapping case is that of the Syriac and Greek 
Orthodox archbishops of Aleppo.
    Such acts of terror are not senseless; they send a clear 
message to the religious minorities: Leave the country now. The 
conflict in Syria today, Mr. Chairman, cannot be portrayed 
simply in simple terms as one of the evil Assad's dictatorship, 
a war against a peaceful, democracy-loving people of Syria. The 
war has indeed taken on an ugly sectarian character. Nowadays 
the religious minorities and secular-minded Sunnis that could 
constitute possibly a majority of the Syrian people tend to 
look to the Assad regime for protection, while those striving 
to reinstate Sunni superiority or supremacy within an Islamic 
state are the driving force of the anti-Assad insurrection on 
the ground.
    Finally, Mr. Chairman, if our foreign policy establishment 
is determined to bring an end to the Syrian war and to 
strengthen guarantees for the religious rights of minorities, 
the United States will desist from financing and arming forces 
of Sunni supremacism. Our Government will rein in its Sunni 
Islamist allies and will cooperate with Russia, as President 
Reagan did to end the cold war, to create conditions for 
successful peace talks. We need to hear from our President and 
from all American statesmen, irrespective of party, who wish to 
escalate the war effort about their ultimate war goals and 
their plan for preventing genocide and guaranteeing minority 
rights for the Syrian people.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you. Thank you very much for your 
testimony.
    [The prepared statement of Mr. Eibner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Reverend El Shafie.

  STATEMENT OF REV. MAJED EL SHAFIE, FOUNDER, ONE FREE WORLD 
                         INTERNATIONAL

    Rev. El Shafie. Thank you, Mr. Chair, for having me. It is 
a pleasure and honor to be here with all of you. And thank you, 
members of the committee and all the staffers; I know that the 
staffers as well work so hard.
    My name Reverend Majed El Shafie. I am founder and 
president of One Free World, an international human rights 
organization based in Toronto, Canada. I am not just the head 
of my organization, and I am not just a man wearing a suit 
behind my desk. I used to be a prisoner back home in Egypt, and 
I was tortured by the Egyptian regime. And until now I have my 
scars on my body, which I consider it a badge of honor.
    The war in Syria and what we are seeing right now in Syria 
is started by March 2011, and I believe it started as a genuine 
uprising. I believe that the people was tired from the regime. 
I believe that they want end of the corruption, the emergency 
law, and reform of the Constitution. Sadly, as we are seeing 
today--and we hear this expression many times, the ``Arab 
Spring''--what we see today that the Arab Spring been hijacked 
to become an Arab deadly winter on the minority.
    We all are against a dictatorship, make no mistake. We are 
all against a dictatorship, from Mubarak to Assad, to Ghadafi, 
to Ali Abdullah Saleh; whoever they are, we are all against a 
dictatorship. The problem when you take a dictatorship out, you 
create a political vacuum. Who is using this political vacuum 
is the extremist. And, sadly, the worst thing that you can have 
a democracy and freedom between day and night in the Middle 
East, this is will not happen.
    The truth and the reality there is no--there will not be a 
democracy in the Middle East or true freedom without two major 
elements. Number one is the separation between the religion and 
the state. Number two is the freedom of religion of the 
individuals, the freedom to believe or not to believe.
    We see here that the attacks that this Arab Spring or what 
so-called Arab Spring led to attacks on the Christian 
minorities in Syria; not just the Christians, you can found as 
well attacks on the Druze and the Shias. These attacks been led 
in areas like the Roman Catholic Church, our Lady of Salvation 
in July 5, 2012; the deadly bomb blast in August 28, 2012, in 
Druze and Christian areas; the arrest of many of the Christians 
and other minorities and torturing them on the hand of the 
rebels; and, of course, we know about the kidnap of the Greek 
Orthodox Archbishop Paul Yazigi and the Syrian Orthodox 
Archbishop Yohanna Ibrahim, which we don't know until now where 
they are and what has happened to them.
    Not only that, because when the extremist comes, they don't 
only--they are not only danger on the minority, they are also 
danger on the moderate Muslims. And we see right now even 
incidents such as the 14-years-old Mohammad Qatta in the city 
of Aleppo, which was in a coffee shop. And he made a statement 
about the Prophet Muhammed. The rebels kidnapped him, they 
tortured him, and they killed him in public. He was a Muslim 
boy; he was not a Christian boy.
    We see as well the attacks on the Shias, like in June--in 
the early June, dozen of Shiite Muslims in the town of Hatlah, 
where massacre been reported, that the rebels have looted and 
destroyed religious sites after taking control of the--of this 
areas or this region.
    The worst dilemma that facing Islam today as a faith is not 
rising of the extremist, but is the silence of the moderate 
Muslims. The worst dilemma that facing Islam as a faith today 
is not the rising of the extremists, but the silence of the 
moderate Muslims.
    We see here that United States decided that they will 
provide weapon to the opposition, the rebels. It seems to me 
that United States will not learn from its mistakes yet. We 
provided weapon to Osama bin Laden during the mujahideen war in 
Afghanistan, and it turned against us. We provide weapon to 
Saddam Hussein during the Iran-Iraq war, and turn against us. 
We provide weapons to Libya, to the rebels in Libya, and 2 
months later they killed our American Ambassador.
    Providing a weapon to the rebels in Syria will be a mistake 
that the innocent people will pay the price for it, especially 
the minorities. Nevertheless, if the United States none-less 
goes ahead with the military aid, it must demand accountability 
from the rebels, include the return of the weapons after the 
conflict, and deny any further aid if weapons or ammunitions 
are used against minorities, civilians, or American allies, 
such as Israel.
    Let us make it clear: United States in--pledged $500 
million in humanitarian aid. If the rebels refuse to respect 
the minority rights, woman rights, stop child abuse, we have to 
stop or at least to connect our humanitarian aid with 
improvement of human rights in these countries. I believe that 
the American people is tired of using their tax money to 
support terrorist groups, such as the Muslim Brotherhood in 
Egypt and elsewhere.
    In the end, and my closing remark, I believe that our world 
today is unfair place, is unjust place not because the people 
is doing evil, but because the people who remain silent about 
it. History will not remember the words of our enemy, but will 
remember the silence of our friends. The persecuted Christians 
and the minorities is dying, but they still smile. They are in 
very deep, dark night, but they still have the candle of hope. 
Believe me when I tell you, they can kill the dreamer, but no 
one can kill the dream.
    Thank you, Mr. Chairman. God bless.
    [The prepared statement of Rev. El Shafie follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you very much, Reverend El Shafie, for not 
only presenting testimony, but as a man who has literally been 
tortured for his faith, thank you for being here and forgiving 
us the insights of your thoughts and where we should go.
    Rev. El Shafie. Thank you, Mr. Chairman.
    Mr. Smith. Let me ask the entire panel a couple of 
questions. And I will just lay it out, and if could you 
respond.
    I asked earlier the Deputy Assistant Secretary as to 
whether or not he, and especially the administration, construed 
what is going on against the Christians to be genocide. I would 
point out that Syria acceded to the Genocide Convention in 
1955, and Article 1 it makes it very clear that genocide 
means--and this is right from the convention--any of the 
following acts committed with intent to destroy in whole or in 
part a national ethical--ethnical, racial, or religious group, 
such as killing members of the group, causing serious bodily or 
mental harm to members of the group. And then Article 3 talks 
about the acts that are punishable: Genocide, conspiracy to 
commit genocide--you don't even have to do it; the mere 
conspiracy is an actionable offense--direct and public 
incitement to commit genocide, attempt to commit genocide, 
complicity in genocide. And yet, like we saw with Sudan--and I 
remember, Ms. Shea, you were very active and outspoken during 
previous administrations when we utterly refused, as did the 
Europeans, as did the U.N. Human Rights Council, to call what 
was going on in Darfur a genocide. I am wondering, you know, if 
each of you could say whether or not you believe what is 
happening to the Christians rise to the level of genocide.
    Secondly, I had asked earlier about the conditionality. 
And, Reverend, you talked about the importance of 
conditionality with human rights. And I noted that even 
Napoleon Duarte, the former President of El Salvador, told me 
directly how important conditionality was when it come to human 
rights, even within his own government. And I am wondering, we 
heard a lot about vetting. I am not sure how vetting is done in 
an efficacious way to ensure that the bad guys don't get the 
guns. But the conditionality issue, I am not sure there are 
conditions; if you know of any, please say.
    Let me ask Dr. Jasser if you could add--you mentioned--and 
I read your recommendations, the 20 recommendations that were 
made by the Commission. Has the administration embraced all, 
some, or any of those recommendations that were made by the 
International Religious Freedom Commission? And I have a few 
other questions, then I will yield to my colleagues.
    Mr. Jasser. Thank you, Chairman Smith.
    I will address the last one first, in my role as a 
Commissioner. We have begun having conversations at a staff 
level regarding our recommendations, and our report is a little 
over 1\1/2\ months, 2 months old. So we are in the process of 
hoping that they adopt some of those recommendations because of 
the plight of religious minorities. But I can't speak 
officially for--and, obviously, we are not part of the 
administration to be able to speak on their behalf on what they 
feel about those recommendations. We do hope as a result of the 
testimony that they do look at them and embrace them as a 
method in which we should employ the way to protect religious 
minorities.
    To speak to your other questions, again, our report and my 
testimony do lay out the egregious and horrific plight of the 
Syrian people across various faith groups and the sectarian 
divides. However, as you mentioned, and many have mentioned, 
labeling it as a genocide involves certain legal and other 
ramifications that I can't respond to as a Commissioner.
    But let me just speak on my own behalf personally. I do 
think that, obviously, as somebody who speaks to Syrians 
frequently, and trying to keep in contact with them; they just 
do not know if they will be around tomorrow. For example, 
what's happened to Sunni Muslims, the millions now, a 
population in Syria of 22 million with 1 to 2 million displaced 
refugees, 90-plus percent of which are Sunni Muslims, I would 
be hard pressed as an American citizen who cares about 
humanitarian rights not to say that there is a genocide against 
Sunni Muslims in Syria.
    But what happens in all conflicts, and what is the last 
card that Assad has pulled, is fomenting sectarian divisions. 
So what is going to happen, given Assad allowing al-Qaeda into 
his country, has been to basically allow them to have competing 
genocides so that he can legitimize, the regime can legitimize, 
its continued existence.
    Because I will tell you, as much as I agree--and in my 
testimony I talked about atrocities committed by some of the 
rebels. Now, is there a command-and-control center for the FSA? 
There isn't. And there are obviously many, many groups. But God 
help the minorities, such as the Christians, who may disagree 
politically with the Ba'athists or with their political ends, 
because at the end they may have the religious freedom to 
practice, but there is no certainty for those who are 
politically against the regime's authoritarian means.
    And I think lastly, as far as vetting, I think it's 
important, and I will tell you that the trajectory of the 
conflict--we have tried now for 28 months-plus the ``do nothing 
and let the Friends of Syria sort of guide it,'' and it has 
gotten us to this point of talking about competing genocides 
and almost 100,000 dead. And I think at the minimum the choices 
that we have thus far for protecting religious minorities is to 
begin to play a role to help push it--as Mr. Kinzinger said 
earlier, to help push history toward at least giving those that 
would like a democratic, moderate Syria a chance at promoting 
those values and helping those who would be our real allies on 
the ground to have the ability to see a future Syria that is 
not run by either extreme, and I think at least us playing some 
type of a role there, and in the recommendations we give, as 
far as helping those who promote out principles within the 
Friends of Syria, and also of building infrastructure there 
that can help provide safe haven within the opposition.
    Ms. Shea. Yeah. I think every one of us who was really 
monitoring the situation with the minorities, the smallest, 
defenseless minorities in Syria, has very much Iraq on its--the 
precedent of Iraq on our minds. And in Iraq over the last 10 
years, two-thirds of the Christian population there has been 
eliminated. They have been driven out by violence. Many of them 
have been killed, but most are just--been sent it into exile. 
Ninety percent of the Mandeans, the followers of John the 
Baptist, have also been eliminated from Iraq under the same 
conditions; the Yizidis, over half. These are the smallest 
defenseless minorities. They have essentially been ethnically--
or religiously, I should say, cleansed from Iraq.
    That is very much on our minds now in Syria, as we--hearing 
these anecdotes and hearing the church leaders attest to what 
is happening to the Christian people. And I also received a 
letter this week from the Yizidi representative saying the same 
thing, villages, Yizidi villages, emptying out. So that is 
why--because when the dust settles, there may not be any small, 
defenseless minorities left in Iraq. There will be Sunnis, 
there will be Shiites, as horrific as the violence has been 
against those groups and the allies. Those groups will--do have 
champions outside of Iraq, Syria, and have militias and 
militaries at their disposal. These smallest defenseless 
minorities do not.
    And in my first recommendation, I--I said that there should 
be a report trying to establish exactly what is happening, and 
that is why I support the special envoy, because we hear the 
anecdotes, we don't have the dimensions of this--this problem. 
But, of course, we fear a genocidal situation. And this problem 
will not end when this war ends, because there are so many 
militants who are so intolerant.
    And I am very concerned by Secretary Kerry's statements 
today in Saudi Arabia where he said, meeting with the Saudi 
Foreign Minister, Saud al Faisal, saying that he expressed his 
appreciation for Saudi Arabia's leadership within the region, 
and saying that we believe that every minority can be 
respected. So, ``I express our appreciation for Saudi Arabia's 
leadership within the region. We believe that the best solution 
is a political solution. And we believe that every minority can 
be respected. There can be diversity and pluralism.'' I don't 
know who the ``we'' is there; if that is the United States, 
then fair enough. But if he is talking about our partner, our 
closest partner in the region, as he starts out his speech by 
referring to Saudi Arabia, then he is sadly mistaken. There is 
not a single church or other house of worship other than the 
Wahhabi mosque and some Shiite mosques in Saudi Arabia. So 
Saudi Arabia does not believe in diversity and pluralism and 
does not respect minorities.
    So I am very concerned. I think there should be a special 
envoy to take--to understand more clearly what is happening to 
these minorities, especially since they do not register. When 
they go into exile, they do not register with the U.N. They are 
afraid of being minorities again in the U.N. camps and being 
victims again outside of Syria, in Turkey or other places. So 
that has to be taken into account as well. We do not know how 
many Christian refugees there are. There have been some guesses 
of hundreds of thousands, but we really have no idea, and this 
has to be assessed.
    Mr. Eibner. The CSI issued a genocide alert for the whole 
Middle East region because we were concerned that conditions 
for genocide exist. It doesn't mean to say that there is full-
blown genocide, but there is very good cause for concern, as we 
heard from the representative from the State Department.
    The situation in Syria is more acute than anywhere else in 
the region because of the conflict there and the vulnerability 
of the minorities. What we see are acts of genocide or 
genocidal massacres which have affected every minority 
community in Syria, including Sunni Muslims, if you think of 
them as a minority in places where there is perhaps an Alawite 
majority, certain provinces and regions where the Sunni Muslims 
are very vulnerable. And we see a situation developing in Syria 
that is out of control, and it will look very much like the 
Balkans, like Bosnia, where every side in the conflict was 
involved in massacres and acts of genocide, crimes against 
humanity.
    So we are, you know, deeply concerned about this. We are 
deeply concerned that--just over a year ago, if I am not 
mistaken, there was an Atrocities Prevention Board that was 
announced with much fanfare at the Holocaust Museum in 
Washington, and we have not heard anything about, you know, 
what their findings are. They concerned about the possibility 
of genocides; not even genocide, but atrocities. What do they 
see as going on, and what are their recommendations? I would 
have thought that members of the public would want to know what 
the Atrocities Board is doing and what their take on the 
situation in Syria is.
    Another cause for, you know, great concern, I am a 
historian by background, and one cannot help but look back to 
the days of the Ottoman Empire when in 1908 there was a great 
revolution, you might call it the Ottoman Spring, where members 
of all religious communities, ethnic communities were dancing 
in the streets to celebrate freedom. And within a decade there 
is genocide, and Anatolia is completely, you know, cleared of 
its religious minorities.
    It can happen. It can happen today, it can happen this 
year, it can happen within the next--we, the United States, 
have an international obligation to try to prevent genocide. 
There are international undertakings that we have signed on. I 
would like to see the United States Government take these 
seriously and act on their responsibilities.
    And just another observation about the movements of people. 
I think that one can learn a lot about a situation by seeing 
how people vote with their feet. They are not able to vote with 
the ballot in Syria, but there is something that can be picked 
up by movement, how people move around the country. And what I 
have observed is that when people are forced to flee their 
homes--and in most cases it is not because of targeted violence 
against them or their religious community, but there is 
shelling, there is bombing, there is a war going on, and they 
want to get out of there--they tend to go either abroad, or 
they tend to go to areas controlled by the government, such as 
Tartus Province, which is relatively tranquil.
    And I saw myself that there are many Sunni refugees or 
displaced people who are living there, trying to stay out of 
harm's way, and, of course, like all Syrians they are denied 
their political freedoms, but I did not detect any sign of 
special harassment or that they were targeted by the 
government. And after all, we must bear in mind, too, that 
while the Assad regime is a dictatorship that did not respect 
basic human rights and does not provide democracy, it does not 
have an ideology that targets religious minorities. 
Unfortunately, we see increasingly an opposition that is 
dominated by the forces that have an ideology that say 
Christians are not equal citizens, Alawites are not equal 
citizens, and they should either leave, or, if they stay, they 
have to have a second-class role in society.
    Thank you.
    Rev. El Shafie. Mr. Chair, I believe that my colleagues 
here answered your question in details. I don't want to repeat 
their words. There are some people here already tired. So I--I 
think I would--I don't have anything to add on that.
    Mr. Smith. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I wish our 
colleague from Texas was still here, because I find this 
discussion quite fascinating.
    If I am understanding you correctly, Mr. Jasser, you think 
that the United States ought to take a risk and arm the rebels 
because the Assad regime is so brutal that the alternative 
can't be worse, and that is where we ought to sort of put our 
chips. I don't want to put words in your mouth, but I thought I 
heard you kind of say that.
    Mr. Jasser. Well, our Commission's recommendations do not 
get into those types of details. We get into the fact that 
there are things we need to do on the ground in a humanitarian 
way to help move to the protection of religious minorities.
    I did make a comment personally, not as a Commissioner, 
that I do believe the last 28 months of not helping the 
opposition at all has proven that the Darwinian solution of 
sort of letting it play itself out has brought the worst actors 
in the region into Syria, has caused the biggest devastation. 
And the sense that there is a binary choice in Syria now, which 
is between al-Qaeda and the Assad regime, I think is a false 
choice. I think the opposition's numbers clearly show that the 
majority of them are the millions of Syrians that have been 
devastated in this----
    Mr. Connolly. So, all right. Not wearing your Commission 
hat, you personally still think we ought to bet down and invest 
in the opposition even with some queasiness.
    Mr. Jasser. Absolutely. Because the lack--the choice of 
doing nothing--is going to bring the worst pathway. And the 
pathway toward repairing a country that has been devastated by 
50 years of dictatorship will involve some growing paints. It 
may involve, you know, arming some of the wrong people, but we 
can correct those with involvement versus letting Qatar and 
Saudi Arabia decide the future of----
    Mr. Connolly. Got it. Perfectly legitimate point of view. 
But let me ask you two questions. One is in making that 
recommendation to the United States Government, if you had a 
magic wand and you were the chief recommender, that would be 
your recommendation. Are you also willing when you make such a 
recommendation to take responsibility for the possibility that 
the outcome isn't at all what you hoped for, and that, as a 
matter of fact, you are wrong; that what we have done by 
intervening and providing military assistance is to actually 
strengthen the hands of those we do not wish to strengthen, and 
we produce an outcome we do not wish, a jihadist, theocratic-
oriented, intolerant of minorities regime that actually 
respects diversity even less than the Ba'athist regime it 
replaces?
    I mean, I know that is not what you wish, but when you ask 
the United States, a power, superpower, to intervene in this 
kind of situation in that way, somebody has to take 
responsibility for the risk, the probability, slim, moderate, 
remote or high, that the outcome is going to be worse than the 
regime it is replacing.
    Mr. Jasser. Sir, speaking on my own behalf, I would tell 
you that if we exerted real leadership as leaders of the free 
world in that region, and we actually stood behind those 
decisions not just for 6 months, but for years, and laid out, 
educated the American public about what is as stake not only 
for Syria, but the entire region, for our allies, Israel and 
the empowerment of Iran, and play that out over not 1 or 2 
years, but over the next 10, 15 years, and saying that we will 
have a policy that will be pushed forth to protect minorities, 
to protect those who believe in the values of freedom and 
liberty within that region, and say that there are no clear 
answers, but doing nothing is going to allow a Darwinian 
solution that will allow the last 2\1/2\ years that has 
demonstrated the death and devastation and actually the loss of 
American interests, and our allies in the West have lost 
significant influence in Syria with what--with the devastation 
that we have seen. So, you know, choices will evolve, but I do 
believe that currently we have seen the failure of the current 
policy. And while I can completely understand your concerns, I 
believe helping the opposition is a better choice than doing 
nothing.
    Mr. Connolly. Now, you are on a panel with three others who 
are concerned about protecting the rights of minorities, 
especially religious minorities. And I think I heard every one 
of the--your three colleagues on this panel actually differ 
with you. They are very concerned about arming the rebels 
because they actually cited the lack of respect for religious 
diversity within the armed insurgency in Syria.
    Mr. Jasser. Well, sir, I am also concerned about arming the 
rebels, but I do believe that the solutions so far have created 
a vacuum. There have been no solutions. If you look at our 
recommendations that come from USCIRF, it involves a much more 
active role in protecting those minorities and ensuring that 
the current Syrian coalition and others are accountable to 
international standards of human rights to which we have not 
held them accountable because we are taking such a back seat in 
what is happening there, that we need to take a front seat 
rather than allow other countries, as Ms. Shea mentioned, like 
Saudi Arabia, that really have no respect for religious 
freedom, to play a role in a future Syria, where you have both 
sides. One is Iranian standards of religious freedom and Saudi 
standards of religious freedom, both of whom are on the worst 
lists as far as advocacy for religious freedom. And I believe 
America will play a role----
    Mr. Connolly. Dr. Jasser, I just said to you I certainly 
respect your point of view. I wish the world were that black 
and white. I wish our choices were that simple. They are not. 
And I--I am not sure--in fact, I know I don't accept your 
characterization that we have somehow taken a back seat for 28 
months.
    I am not quite sure what you would have us do. And I would 
say that when the United States intervenes in that region, very 
overtly, it can lead with the best of intentions to results 
that are undesirable. I am not sure the intervention in Lebanon 
under the Ronald Reagan administration was such a wise policy 
in retrospect. It led to terrible deaths for the United States, 
and I am not sure it led to an improved outcome in Lebanon; 
history will have to judge.
    You know, the President got a lot of criticism for leading 
from behind in Libya, and yet I will say to you, and I was in 
both Egypt and Libya last year, I was more hopeful about the 
outcomes in Libya in terms of pluralism and respect for 
minority rights--albeit it is a much smaller country--than I 
was for Egypt. And I have been to Egypt many times.
    So I wish, you know, our options were really clear cut, and 
we could find the guys with the white hats, because I would 
support them, too. But I am not so sure that it is clear. Nor 
was it as clear 28 months ago that the insurgency was only 
composed of elements of people wearing white hats.
    Now, Ms. Shea, let me ask you, you gave a very interesting 
analogy. Iraq. The interesting thing that both Iraq and Syria 
shared, of course, when Saddam Hussein was still in power was 
they both had Ba'athist regimes. And Dr. Eibner actually cited 
the Ba'athist philosophy or political governance not in an 
admiring way, but he reminded us that the one thing, though, 
that was true was you weren't having a whole bunch of 
Christians and other minorities fleeing because they were 
worried about the oppression and brutality of a regime on their 
rights. They weren't being singled out as such in a way that 
unfortunately they seem to be at least with some elements of 
the--of the insurgency in Syria. Is that your view as well?
    That--terrible, though, the brutality of Saddam Hussein 
was, no one is praising that regime. There was a difference 
between the Ba'athist philosophy that governed both in Iraq and 
Syria with respect to minority rights or with respect to 
minorities, including religious minorities. That is quite 
different than an explicit avowed ``they are not us'' kind of 
philosophy that seems to come out of at least some of the more 
extreme elements of the insurgency in Syria today. And, for 
that matter, in the post-Saddam Hussein world of Iraq, whatever 
respect there was for minority rights seems to have dissipated 
and worsened in the current situation in Iraq. Are those views 
you would share?
    Ms. Shea. Well, I think both regimes, in a way, they were 
mirror images of each other. They were both Ba'athists and 
secular, but they were both the minorities themselves. Saddam 
Hussein was, of course, a Sunni minority in the Shiite Iraq. 
And Assad is a----
    Mr. Connolly. Alawite. Right.
    Ms. Shea [continuing]. Minority aligned with the Shiites in 
a majority-Sunni Syria. So that there was an emphasis on 
building a secular society from those regimes, and, therefore, 
there was more space for other minorities like the Christians 
and the Yizidis, et cetera.
    I don't think there is any going back to that, though, in 
Syria. I think what we are seeing now is the Assad regime 
making deals with tribes and others at the expense of these 
minorities. They are letting gangs of criminals prey on these 
minorities with impunity, just as actually is happening now in 
Iraq, continues to happen in Iraq, with the impunity situation 
that USCIRF has--they have identified.
    But the--there is the jihadist element in the rebels that 
is extremely worrisome, and these are being supported, it is no 
secret, from the Gulf region.
    Mr. Connolly. I was struck by your testimony and that of 
the other two panelists to the other side of you not because 
it--not because you were saying that we should go back, or we 
should shore up the Assad regime because, given the 
alternative, it is leaser of two evils, but to show that our 
choices in Syria are not so clear, and that the outcomes are at 
high risk. That isn't an argument to do nothing, but it is an 
argument to take care and caution and make sure we know what we 
are doing before we just rush in and support one side or the 
other.
    Ms. Shea. I oppose military aid, for what it is worth, from 
my opinion, to Syria at this point. And I conclude that we 
should have--make every--make the peaceful settlement in Syria 
among our highest foreign policy priorities, and that the 
President should use his prestige that you have identified to 
make that happen, and to be fully engaged in it.
    Mr. Connolly. Thank you.
    Dr. Eibner, I just want to make sure I characterized your 
views correctly. I did?
    Mr. Eibner. Yes. There was no misrepresentation that I 
picked up.
    Mr. Connolly. Thank you.
    And Reverend El Shafie?
    Rev. El Shafie. Yes.
    Mr. Connolly. I thought I heard you actually say 
explicitly, don't arm the rebels.
    Rev. El Shafie. That is correct.
    Mr. Connolly. And you said that why? Remind us again why 
you think, unlike Dr. Jasser, the United States should not go 
down that road.
    Rev. El Shafie. Let's look at the--first of all, allow me 
to explain that there is no win-win scenario about Syria. If 
Bashar al-Assad stayed, Iran, Hezbollah have the stronger arms 
in the region. If defeated, we ended with extremist Sunnis that 
only God knows what they will do. So there is no win-win 
scenario when it comes to Syria.
    But let us take a look at the opposition, the Syrian 
opposition, the rebels. Let us look at their component at their 
cells. You found like the Free Syrian Army, the National 
Coalition of Syrian Revolution, the opposition's forces or the 
Syrian Opposition Coalition, that is led by al-Khatib, Moaz al-
Khatib. He in exile in Cairo. You have the Syrian Muslim 
Brotherhood, or the SMB. This is a guy by the name Mohammed 
Riad. He is in exile in London.
    When I am look--and I am not saying they are the only ones 
that leading the opposition, but I am talking about the big 
names, the main player. All of the names that I am telling you 
right now, they are very extremist and very violent. And my 
fear, when we arm the rebels, even if we are arming the people 
that we feel that they are less extremist, that they will not 
have a full control on where is this weapon going, and this 
weapon in the end will go to kill civilians or minority, or 
will attack Israel, which is alliance, or will kill our 
Ambassador in Damascus later on. That is my fear.
    Mr. Connolly. Thank you.
    Mr. Chair, you have been most indulgent. I really 
appreciate it. I do think this panel has given us a lot of food 
for thought and highlights the complexity of the choices we 
face in Syria. Thank you so much.
    Mr. Smith. Thank you very much, Mr. Connolly.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Connolly, great questions. I appreciate it.
    And your testimony, I guess, is--it is almost a nightmare. 
And we know it is going on over there, and that is my concern.
    And, Dr. Jasser, I want to commend you and your parents for 
having the good sight and you the good fortune of landing on 
the shores of America to where you and hopefully your parents 
have experienced and lived, and it sounds like it, the American 
dream. And I think that is a basis underlying tenet for all 
humans, that yearning to be free. And I would love for 
everybody in the world to have that and experience that, but 
reality is we are not there yet.
    Reverend El Shafie, you are from Egypt, right?
    Rev. El Shafie. That is correct, sir.
    Mr. Yoho. When you said you were tortured, was it President 
Mubarak at the time?
    Rev. El Shafie. It was the regime, the Egyptian regime. 
That is correct, Mubarak at the time.
    Mr. Yoho. And you know, the--I guess back in the old days, 
we will say it, things were more predictable; they weren't 
good, but they were predictable, because if you propped up a 
regime, you could kind of determine how they were going to 
respond----
    Rev. El Shafie. That is correct.
    Mr. Yoho [continuing]. And how they would react.
    We have got a whole new ballgame now. We have got a new 
group of people in there that have arised from the Arab Spring, 
and like you said, it is turning into the Arab Winter. Their 
ideologies are different. They are stronger. There are stronger 
beliefs in--I don't want to say extreme Islam, but, I mean, we 
are seeing that played out with Sharia law and all that. And so 
it is a whole different game, and we don't know how people are 
going to respond, and we don't know how to--I don't want to say 
manipulate, but how to work with them to get the results we 
want.
    And what I have heard from three of you is the way I feel. 
You know, arming them is a bad thing to do. I mean, we have 
tried that. We have seen it in Iran in the 1970s. We have done 
it with Iraq. We have done it with Afghanistan. Libya is yet to 
play out. And that is one of my questions is I would like to 
hear your response and what you think is turning out in Libya, 
if we are on the right track with what we do with the flyovers 
and the minimum intervention that we had, so that we can look 
at Syria and which way to go.
    Because what I have heard from all of you is the promotion 
of liberty, the promotion of freedoms, human rights promotion, 
religious freedoms. And, again, I don't have to remind you, but 
those are more Westernized ideologies; not freedom. But to 
promote and to try to force human rights on an Islamic country 
when they don't believe the way we do, I don't see how you can 
do that without taking complete control over a country, and 
that is something that is just not acceptable.
    What are your thoughts on that? If you would, start with 
Libya on how you think that is turning out right now.
    Rev. El Shafie. Do you want me to start, or do you want to 
start with Dr. Jasser?
    Ms. Shea. You start.
    Rev. El Shafie. The separation between the religion and a 
state, any religion, any state, is necessary to ensure true 
democracy and freedom in any country. Any religion, any state. 
The problem that you are seeing right now is lack of education.
    One of the major issues that we see in Egypt, for example, 
is lack of education. Even if you reform the Constitution, you 
have 30-40 percent of the Egyptians is illiterate; they don't 
know how to read or write their own name. Even if you reform 
the Constitution, they don't know what they are voting on. So 
here comes the religious guy, comes in the name of God, and 
they will follow him because they don't know any better.
    So education have to come before democracy. Without 
education, democracy dies. Education is the oxygen of 
democracy.
    In Libya--back to your question, in Libya, how we can see 
the future in Libya--you got to remember there was a time that 
came that they said there was somebody, American pastor, I 
believe in Florida, was burning the Koran, something like that.
    Mr. Yoho. Right. From my hometown.
    Rev. El Shafie. Blaming you, by the way, I'm sure.
    And everybody went attacking American Embassies, burning 
Bibles and so on and so forth.
    Do you remember what happened in Libya, sir, in that time? 
They went to cemeteries. There were cemeteries where the old 
British soldiers that fought the Second World War was. There 
was a cross in their cemeteries, and they went to destroy the 
crosses. This is after a very short period of time that we 
supported them, that we send our troops to help them, and to 
finish Ghadafi like--the war won in Libya because the NATO 
troops interfered and because the American troops build no-fly 
zone, make no mistake.
    Mr. Yoho. Right.
    Rev. El Shafie. But this is how was the respond.
    When we are not helping, I think one of the major thing 
that we are missing in our policies is accountability. There is 
nothing wrong with accountability. When I am giving you--I went 
to Iraq not that long time ago. I took Canadian Members of 
Parliament and Canadian Senators--I live in Canada; I am a 
Canadian--and I want to Iraq. It was the first Canadian 
delegation to go to Iraq after the war. Canada gave to Iraq 
$300 million. When I met with the Vice President, and when I 
met with the Deputy Prime Minister, I told them, ``What did you 
do with this money?'' And they said, ``We don't know.''
    I want to inform you and to ensure you that 90 percent of 
the aid that goes from the American Government, if it is not 
more, and goes to the Libyan Government or to the Iraqi 
Government or to Syrian Government at some point is--will be 
misused.
    Mr. Yoho. I agree. And that is--you know, as we give 
foreign aid, I think we need to change our whole policy in that 
here is our aid; these are the conditions you take it under. 
You know, we believe in these things: We believe in human 
rights, we believe in freedom of expression--or religious 
freedoms and all that. I am not going to tell you you have to 
do it, but if you want our money, this is what you do.
    Rev. El Shafie. That is it.
    Mr. Yoho. And so--but you see Libya playing out in a 
favorable way, or do you think it is still rocky and it can go 
either way?
    Rev. El Shafie. No, is still rocky. I think Libya----
    Mr. Yoho. I think so, too.
    Rev. El Shafie [continuing]. Is the cancer under the skin.
    Mr. Yoho. I agree.
    Rev. El Shafie. This will come at some point.
    Mr. Yoho. Dr. Eibner?
    Mr. Eibner. Yes, sir.
    I think Libya is very rocky indeed. And we have heard about 
some of the events in the Libya since the revolution. One which 
is not mentioned by Reverand El Shafie was the arrest of scores 
of Coptic Christians from Egypt in Libya, and they were 
tortured and abused very badly simply for allegedly sharing the 
Gospel. So there is great cause to be concerned about the 
consequences of our policy in Libya.
    I would agree with Reverend El Shafie that there are really 
two fundamental conditions for democracy. One is a separation 
of religion and state, and the other is the freedom to choose 
one's religion.
    Mr. Yoho. I wrote that down when you said that. How do you 
instill that on another country when that is not their belief?
    Mr. Eibner. That is exactly what I am leading up to is that 
these two conditions, which I think we would all agree are 
fundamental conditions for democracy, are generally thought of 
throughout the Islamic world as un-Islamic.
    Mr. Yoho. Right.
    Mr. Eibner. And that to promote those conditions or those 
values is to act against Islam. That is the huge problem that 
we face.
    Mr. Yoho. Exactly right.
    Mr. Eibner. In order to really fundamentally change--of 
course, the United States can use its influence here, and there 
and tinker with systems, and make it a little bit better or a 
little bit worse, but to fundamentally change the situation so 
that one has--so that these conditions are met, it would mean 
nothing short than going back to old-fashioned imperialism, 
where the United States moves in like the French or the British 
in old times: Here we are, we are here to stay, we run the 
show, and we take responsibility for governance. That is 
something that we in the United States do not do with our role 
as a superpower. It is another way of saying, actually, 
neoimperial power.
    Mr. Yoho. Right.
    Mr. Eibner. We want to have our--guarantee our resources, 
our strategic interests, but not take real responsibility. And 
we repeatedly take half measures like, you know, calling for 
the overthrow of the Assad regime, but without having a real 
strategy and resources to make it happen and to make it work in 
a desirable--in a desirable way.
    Mr. Yoho. And that is what I see is, I mean, we are doing 
the same thing over and over again, but we are not getting the 
results we want. And I don't know how you get to that, because, 
like you said, you can't separate religion from politics in 
Islam, because it is one and the same; they work together in 
that--in that mindset. And we are trying to say, well, we want 
to separate religion from the politics; we want the religious 
freedom.
    Mr. Eibner. Well, I say that I don't believe that these are 
our real goals as a Nation. Our strategic goals are not to 
achieve that, and as I mentioned in my statement, I am 
convinced that our major strategic goal in the region is to 
create this Sunni axis from Turkey to the Gulf states as a 
barrier to Shiite in Iran, and these human rights issues and 
religious liberty issues are sadly sacrificed on the altar of 
these greater geopolitical interests that our Nation has.
    Mr. Yoho. Okay. Thank you for your testimony.
    Ms. Shea?
    Ms. Shea. Yeah. I want to second what my copanelists have 
said about Libya, but I think that it is very important to 
focus on Egypt and to think about Egypt as you are. We do 
provide billions of support for the government even now. And 
maybe putting Egypt soon on life support as it threatens to 
teeter over the cliff of failed statehood--June 30 is the date 
to watch; they are planning big demonstrations against the 
regime and counterdemonstrations against the protesters.
    And Egypt is the country in the Middle East with the 
largest--in the Muslim Middle East with the largest Christian 
population, by far; maybe 8-10 million Christians. Only two, 
three others rise to anywhere near 1 million, and that is 
Syria, with perhaps 1 million or so Christians; Lebanon; and 
Iraq, which has been devastated, the Christian population 
there.
    If the Copts are attacked--continue to be attacked, it is 
going to be a very, very difficult situation, and it will be--
signal further radicalization of that whole area, because once 
the great cultural crossroads in history, this Middle Eastern 
region, it will be totally Islamicized for the first time and 
can be expected to radicalize.
    Mr. Yoho. And that is my concern. That is where I see we 
are heading with the policies we have. And, you know, I have 
read all your stuff in here, and what I look forward to is 
redirecting our foreign policy in a way that it is not 
interventionism, it is more on trade, technological advice, and 
help along those lines. And that is what I look forward to 
doing.
    Ms. Shea. We don't have any red line at all in our aid to 
Egypt to protect the Christian minority there, and we should.
    Mr. Yoho. Okay. Doc.
    Mr. Jasser. Thank you. And I am just sort of--there are 
some issues I just think we really need to address. And as far 
as promoting religious freedom abroad, you know, the mechanism 
is, the narrative--I think many of us agree on the symptoms, 
that there are religious minorities being attacked, that their 
plight is as grim as it has ever been. But then as you make 
that assessment, you can't get away from the fact that you 
cannot defeat al-Qaeda and radical Islam in Syria or in Egypt 
or in Saudi without changing the dictatorships.
    Assad produced, allowed al-Qaeda in because it is a 
mechanism for sectarian control his population. So if the 
narrative becomes a binary choice, I can tell you, as you 
mentioned, my family, you know, they saw, as they were in and 
out--my grandfather was in and out of prison in the 1950s. As 
dictatorship after dictatorship happened in Syria, and then it 
solidified into this Ba'athist regime, they looked upon the 
West as the leader of the free world and a place to come to 
build these ideas. Not as a Commissioner, but my NGO is based 
on the separation of mosque and state, is based on advocating 
Islamic ideas against groups like the Brotherhood. But Egypt, 
for example, will finally be able to treat the condition of 
theocracy that comes from the Brotherhood through the freedom 
that it got after the departure of Mubarak.
    So to think that it is going to be clean and not a mess is 
not what I am trying to say, but to say somehow that Arabs or 
Muslims are any different than Americans were at their 
revolution is just, I don't believe, the human narrative that 
is part of the International Religious Freedom Act that every 
human being wants to be free when left to their own devices.
    And the United States, I believe--and I think to say that 
sitting on our hands doesn't have--you know, sort of keeps us 
clean of what is happening and with no moral obligation, and 
somehow we can then during any political cycle say that we had 
nothing to do with the changes there I don't think is a fair 
assessment in that there are choices. And if Syria continues to 
go south and radicalize, that that will be a choice we have 
allowed to happen, and that we could have steered it in a 
different direction.
    Certainly some interests will try to blame people that 
decide to help the opposition with some untoward effects that 
may happen, but I still believe that the last 28 months 
demonstrate that anything against Assad, you defeat him first, 
and then later--and many of the Free Syrian Army say this: 
Defeat Assad first, then we defeat al-Qaeda.
    Mr. Yoho. Well, you know, I want America to be the magnet 
in the world that people look to and aspire to to look at a 
country that says, that is what freedom does; you can become 
and do whatever you want to in a country that honors those 
basic rights, and we have that Constitution we have been 
blessed with.
    But yet I guess what I am looking for is a way to have the 
people uprise, because it has got to come from the ground up. 
We can't instill it from the top down. It is not going to work. 
I mean, when you have 1 billion Muslims in the world that don't 
quite believe the way we do, to put our beliefs there, it has 
got to be an uprising from the ground up. And I look forward 
to, you know, sending questions to you guys and hearing more 
from you.
    One of the things that has been promoted is Radio Free 
America, you know, and the Freedom Network to get that message 
out. And there are other things like that I know we can do on a 
small scale, but to promote that, that ideology of freedom, 
that it is there for everybody, and help them achieve that.
    I appreciate your time. Thank you.
    Mr. Smith. Thank you very much.
    Mr.----
    Rev. El Shafie. Can I add something, please, just something 
extremely small?
    Mr. Yoho. Is that okay, Mr. Chairman?
    Mr. Smith. Absolutely.
    Rev. El Shafie. One of the things about education, like 
what I was talking about education, the accountability of the 
American aid. First of all, I--I disagree with Dr. Jasser, if 
we defeated Assad today will defeat al-Qaeda tomorrow. Never 
happened before in history and will not happen now. It just 
will not happen. Experience wise it did happen.
    But, example, just a quick example about education, because 
if you really want to build this true democracy, you have to 
start from the young generation. This is a book from the 
Egyptian--from the Egyptian schools during the time of Mubarak. 
Was supported, funded by American aid, the 1.9- that we gave to 
the Egyptians after Camp David.
    This book, it was supposed to be--it is in every school 
until now. When you open the book, you found on page number 24, 
speaking about jihad, for example, violent jihad. When you are 
looking at page number 11, you found that there is no Israel on 
the map, does not exist completely. And so on and so forth, big 
examples.
    I think this will be much better for all of us, if we are 
giving aid for a school, for example, to raise a new 
generation, let us go to the school ourselves or the Embassy 
that--in this region, like if we have the American Embassy in 
Cairo, for example; why don't make a surprise visit to the 
school and grab one of the books that you paid for?
    Mr. Yoho. I think that is a great idea, and that goes back 
to your idea of accountability. I mean, we all talk about 
transparency and accountability, but we don't see it, and we 
don't follow through. And we can't afford to do that anymore 
for the sake of Syria, Egypt, all these other countries. And it 
is--if we are going to spend the American taxpayers' money, 
when we are borrowing at the point we are and the debt we are 
in, we need to change the game and the rules of the game, I 
will say.
    Rev. El Shafie. Yes, sir.
    Mr. Yoho. And again, thank you all. Appreciate it.
    Mr. Smith. Mr. Yoho, thank you very much.
    On that very point, as you and I and, I think, everyone in 
this room knows, in Rodgers and Hammerstein's famous South 
Pacific, there is a song in it where you have to be taught, 
taught about racism, taught about hate, how it is passed on 
from generation to generation. And I and our subcommittee for 
years has raised the textbooks issue, particularly in the 
camps, but as well, as the Reverend said, the books that were 
very much utilized during the Mubarak regime.
    The problem is we have gone from bad on worse. And I think 
that is what we are trying to say with this hearing, that the 
Christians have been targeted. As Ms. Shea has so eloquently 
pointed out, it is not collateral damage; they are being 
targeted. And I don't think that understanding has--has been 
accepted by some people within the administration, or within 
Congress, or in the European community.
    And, Dr. Jasser, as you know, during the worst days of the 
Bosnia conflict, you know, not only did I make frequent trips 
there, but I had the hearing where we heard from the translator 
who was there when Milosevic and the Dutch peacekeepers were 
lifting up glasses of wine or champagne as 8,000 Muslim men 
were loaded onto buses and were destroyed in an act of genocide 
in Srebrenica, a so-called U.N. safe haven.
    Hopefully, we learned from those lessons. Part of the 
reason for this hearing is to say that Christians are being 
targeted, as Ms. Shea pointed out, and the response has been at 
best inadequate.
    I do believe there is good faith on the part of the 
administration. The problem is that we haven't had that line to 
say, our Deputy Assistant Secretary talked about generically 
talking about human rights with the opposition, the Free Syrian 
Army. There needs to be a very carefully delineated list of 
things that need to be avoided, including the targeting of 
Christians simply because they are Christians. So hopefully 
that message will be taken back.
    Your testimonies have been of enormous, enormous help to 
us. I have other questions, but it is late, and you have been 
very patient with your time. I will submit them for the record.
    But I want to thank you, and thank you for your bold and 
very effective leadership over the course of many, many years 
for each of our four distinguished panelists.
    Mr. Yoho, thank you for your participation. Thank you to my 
friends on the other side of the aisle.
    The hearing is adjourned.
    [Whereupon, at 5:58 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


              Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Submitted for the record by Zuhdi Jasser, M.D., Commissioner, U.S. 
             Commission on International Religious Freedom

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Material submitted for the record by John Eibner, Ph.D., chief 
       executive officer, Christian Solidarity International, USA

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by Ms. Nina Shea, director, Center 
                for Religious Freedom, Hudson Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
